<html>
<title> - DEPARTMENT OF EDUCATION BUDGET PRIORITIES FOR FISCAL YEAR 2005</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



     DEPARTMENT OF EDUCATION BUDGET PRIORITIES FOR FISCAL YEAR 2005

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 11, 2004

                               __________

                           Serial No. 108-18

                               __________

           Printed for the use of the Committee on the Budget


  Available on the Internet: http://www.access.gpo.gov/congress/house/
                              house04.html


                                 ______

91-861              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                        COMMITTEE ON THE BUDGET

                       JIM NUSSLE, Iowa, Chairman
CHRISTOPHER SHAYS, Connecticut,      JOHN M. SPRATT, Jr., South 
  Vice Chairman                          Carolina,
GIL GUTKNECHT, Minnesota               Ranking Minority Member
MAC THORNBERRY, Texas                JAMES P. MORAN, Virginia
JIM RYUN, Kansas                     DARLENE HOOLEY, Oregon
PAT TOOMEY, Pennsylvania             TAMMY BALDWIN, Wisconsin
DOC HASTINGS, Washington             DENNIS MOORE, Kansas
ROB PORTMAN, Ohio                    JOHN LEWIS, Georgia
EDWARD SCHROCK, Virginia             RICHARD E. NEAL, Massachusetts
HENRY E. BROWN, Jr., South Carolina  ROSA DeLAURO, Connecticut
ANDER CRENSHAW, Florida              CHET EDWARDS, Texas
ADAM PUTNAM, Florida                 ROBERT C. SCOTT, Virginia
ROGER WICKER, Mississippi            HAROLD FORD, Tennessee
KENNY HULSHOF, Missouri              LOIS CAPPS, California
THOMAS G. TANCREDO, Colorado         MIKE THOMPSON, California
DAVID VITTER, Louisiana              BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM COOPER, Tennessee
TRENT FRANKS, Arizona                RAHM EMANUEL, Illinois
SCOTT GARRETT, New Jersey            ARTUR DAVIS, Alabama
J. GRESHAM BARRETT, South Carolina   DENISE MAJETTE, Georgia
THADDEUS McCOTTER, Michigan          RON KIND, Wisconsin
MARIO DIAZ-BALART, Florida
JEB HENSARLING, Texas
GINNY BROWN-WAITE, Florida

                           Professional Staff

                       Rich Meade, Chief of Staff
       Thomas S. Kahn, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, February 11, 2004................     1
Statement of:
    Hon. Roderick R. Paige, Secretary, Department of Education...     4
    Lisa Graham Keegan, CEO, Education Leader Council............    37
Prepared statement and additional submissions:
    Mr. Paige:
        Prepared statement.......................................     8
        Responses to questions for the record....................    31
    Hon. George Miller, a Representative in Congress from the 
      State of California........................................    35
    Ms. Keegan...................................................    39
    Article submitted for the record by Hon. Ginny Brown-Waite, a 
      Representative in Congress from the State of Florida.......    46

 
     DEPARTMENT OF EDUCATION BUDGET PRIORITIES FOR FISCAL YEAR 2005

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2004

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11 a.m. in room 
210, Cannon House Office Building, Hon. Doc Hastings [acting 
chairman of the committee] presiding.
    Members present: Representatives Hastings, Schrock, Shays, 
Diaz-Balart, Franks, Garrett, Wicker, Spratt, Moran, Kind, 
Baird, Scott, Majette, DeLauro, Baldwin, Lewis, Edwards, 
Thompson, Capps, Hooley, and Moore.
    Mr. Hastings. I am going to call the meeting to order. Good 
morning. Welcome to this hearing of the Budget Committee. We 
are pleased today to have the Secretary of Education, Roderick 
R. Paige, who will be on our first panel. And I might add that 
he is on a tight schedule, so we will try to work our way 
through this as quickly as possible. And I would also like to 
acknowledge that our second panel will have our colleague from 
northern California, George Miller, here along with Lisa Graham 
Keegan from the Education Leaders Council. So I want to welcome 
both of the panels.
    Today's hearing will focus on the President's education 
request. We will discuss not only the levels of the request, 
but also what those funds are intended to accomplish at the 
classroom level. So let us begin this discussion with a brief 
review of how we reached today's level of Federal, and I want 
to emphasize that, education spending.
    Today, the Department of Education budget is nearly two and 
a half times as large as it was in 1996, and if you would put 
up that slide, I would appreciate that, when we took over.
    This is an annual growth rate of 12 percent sustained over 
8 years, as you can see. No other cabinet level agency has 
grown as fast as education during that time period, as you can 
see.
    Now, looking at the larger programs within education, let 
us go to that panel, you can see that the funding for low 
income, the Title I funds, have nearly doubled, and that is the 
biggest portion of the education budget. Education isn't 
confined to just K-12. Let us go to the Pell grant panel. As 
you can see there, since 1996, funding for Pell grants has more 
than doubled.
    Now let us go to one other panel, the IDEA spending. No, it 
should be another one on IDEA. OK, well, at any rate, I will 
just simply say that since 1996 we have more than increased, 
and at least tried to authorize, the catch up that should have 
been done years ago for IDEA, and we are starting that process. 
So I just want to mention that.
    So there is evidence that these increases that I have 
talked about may be coming too fast even for the State budgets 
to absorb. In fact, the States collectively are sitting on a 
total of more than $5 billion in unspent Federal education 
dollars, some of which were appropriated for their use more 
than three and a half years ago, before President Bush entered 
office.
    Perhaps we should pause and consider what sort of bang that 
we are currently getting for our Federal dollars.
    Is there a reason to believe that simply increasing Federal 
spending can increase student achievement? Is there a direct 
relationship between the number of dollars Washington spends on 
education for a child and the amount that the child earns and 
learns?
    Let us go to that next chart that you put up there.
    I wouldn't say that is the case if you believe the numbers. 
Since the mid-1980s, reading and math scores of American school 
children on national tests have remained essentially flat, even 
as Federal spending has grown significantly.
    That is why this Congress, several years ago, instead of 
just throwing more money at the problem, we tried another tact, 
and that was to pass the No Child Left Behind Act of 2001. That 
law demands results from schools in exchange for Federal 
dollars. It tries to forge a real link between education 
spending and classroom achievement, and it focuses resources 
more sharply on underperforming schools.
    Many, on both sides of the aisle, believe that the 
accountability standard in this law represents the greatest 
step forward in a generation in terms of Federal contribution 
to K-12 education. A larger stride even than the funding 
increases that we have seen in recent years.
    Why is this?
    No matter how much we raise education spending on the 
Federal level, the Federal level of support will always be a 
junior partner in this enterprise. Of the half trillion dollars 
that will be spent on K-12 education in the United States this 
year, less than 10 percent of that total will come from Federal 
spending; the remainder will overwhelmingly be funded by State 
and local tax revenue. And that is the way it should be. That 
is the way it has always been and that is the way that we 
intend that it should always be.
    So the best chance for those of us in Washington, DC, to 
have an impact is to tell schools that if they leave children 
behind, they will be subject to sanctions. And we must reassure 
parents that we are committed to providing their children with 
educational opportunity no matter where they live or where they 
attend schools.
    So with that, Mr. Secretary, I appreciate your being here. 
I will turn to Mr. Spratt for his opening comments.
    Mr. Spratt. Thank you, Mr. Chairman. And I would like to 
thank Secretary Paige, as well as Congressman George Miller and 
Lisa Graham Keegan for coming here to discuss the President's 
2005 budget for the Department of Education. I can think of few 
issues that are more important to our future, and I look 
forward to the testimony from each of you.
    Last week the President sent us a budget that increases the 
deficit by almost 50 percent and then vows to cut it in half 
over the next 4 years. These huge annual deficits are not just 
a fiscal problem, not just an economic problem; they are a 
moral problem, because our children and grandchildren will be 
forced to repay record amounts of debt that we are borrowing 
today. The administration calls these deficits manageable, but 
tell that to our children when the debt comes due. This is all 
the more reason--because of the debt, the burden, the legacy 
that we are leaving them--to make certain they are productive 
citizens who can earn their way in our society.
    In the face of massive deficits with no surplus in sight, 
the administration nevertheless calls for more tax cuts which 
will reduce revenues by $1.2 trillion and drive the budget 
deeper into debt. This makes it even more difficult to do what 
we all know we must do to improve education for all of our 
children. For 2005, all appropriated programs except those for 
defense, international affairs, and homeland security--all 
discretionary domestic programs--will have to fight each other. 
The budget pits them against each other for shares of a 
shrinking pie. The administration's fiscal policies have put us 
in the position where any increase in education this year has 
to come at the expense of other priorities: environmental 
protection, law enforcement, medical research, scientific 
research, public health; they are all in competition with each 
other. And the picture only gets worse in 2006, when total 
funding for domestic programs is cut even deeper below the 2005 
level.
    Today's hearing is an opportunity to talk about something 
critically important: education funding. The President's budget 
increases funding for the Department of Education by 3 percent, 
a modest increase that still leaves behind lots of children and 
even college students. Every year since he came to office, 
Congress has taken the President's budget requests, as you can 
see here from chart No. 3, has taken the budget's request, 
particularly under No Child Left Behind, and added something to 
it. This chart shows, the white bar, the amount the President 
requested and, the yellow bar, what Congress added. And the red 
bar is a stark testimony to what we said was needed, what we 
all authorized when we passed, to much acclaim, the No Child 
Left Behind bill just a few years ago. We said this was the 
level of funding that would be required for the school 
districts to meet the unprecedented obligations we were laying 
on them in the name of accountability.
    Now, if we follow the President's budget over the next 4 
years, the truth of the matter is we are going to cut funding 
for the Department of Education and never again reach the 2005 
level. This is true by our reading of the budget and the 
computer printout that comes with it for every office and every 
budget account in the Department of Education in 2006 and 
beyond. The biggest shortfall, ironically, occurs in the 
President's signature program, his own program, No Child Left 
Behind. The President's budget increases 2005 funding for No 
Child Left Behind by $448 million. That is 1.8 percent above 
the level enacted this year. This leaves that program $9.4 
billion short of the level that Congress and the President held 
out as necessary just 2 or 3 years ago when it required the 
States to meet the new achievement standards imposed by this 
law.
    The 2005 total for NCLB leaves funding for Impact Aid 
frozen at the 2004 enacted level: teacher quality improvement 
grants frozen; after school programs frozen; comprehensive 
school reform eliminated; Title I plussed up a billion dollars, 
at least in 2005; it is unclear what happens in the out years; 
and other programs also cut or frozen in order to improve 
student achievement. All in all, I believe 38 different 
programs are going to be killed, thrown out. So this looks like 
we are increasing certain things, but in the name of making 
room for them we are decreasing other things and decreasing 
them substantially.
    Despite, for example, the President's campaign to increase 
Pell grants for first year college students, this budget 
proposes to freeze the maximum Pell grant for the third 
straight year. In addition, it eliminates five higher education 
programs that total $175 million, which results in a net cut 
for campus-based programs. It also freezes direct grants for 
students and cuts the support for student loans by $2.3 billion 
over the next 10 years.
    Mr. Secretary, with tuition rising and State funding 
falling, these cuts can only make college less attainable, less 
affordable for millions of college students across this 
country. We have a profound obligation to give our children a 
good education, good teachers, a safe learning environment 
where they are challenged to learn and equipped to succeed. 
Instead of living up to this obligation, I am afraid this 
budget is going to leave more students behind and, worse still, 
saddle them with mountainous budget debt. We can and should do 
better. We look forward to your testimony, Mr. Secretary.
    Mr. Hastings. Thank you, Mr. Spratt.
    Mr. Secretary, welcome to the Budget Committee. Without 
objection, your full statement will appear in the record, and 
you are recognized.

 STATEMENT OF HON. RODERICK R. PAIGE, SECRETARY, DEPARTMENT OF 
                           EDUCATION

    Secretary Paige. Mr. Chairman, Representative Spratt, and 
members of the committee, thank you for inviting me to testify 
on behalf of President Bush's 2005 budget for the Department of 
Education. Before I discuss the facts and figures, I think it 
is important to preface our discussion with some comments about 
the Federal role in education.
    The No Child Left Behind Act, and the President's budget to 
support it, is best understood within the context of the 
Federal role in education in our country. Because the 
Constitution was silent on the issue of public education, 
public education is a direct responsibility of the States, 
including funding. However, we do have a national interest. 
Although the Federal Government has provided some support for 
our public education since the late 1800s, it only took a 
prominent role with the enactment of the Elementary and 
Secondary Education Act of 1965. But the increased funds from 
this initiative proved to be an incomplete solution. In 1983, 
when the National Commission on Excellence in Education issued 
a groundbreaking report entitled, ``A Nation at Risk,'' they 
chose their words purposefully. They didn't issue a report 
entitled Some Few States at Risk. National inequity does indeed 
place our Nation at risk, and it is for this reason the No 
Child Left Behind Act is an important component of ensuring our 
national well being.
    Our role at the U.S. Department of Education is to 
supplement State and local efforts, not to supplant them. A 
uniform set of ``Federal standards'' does not exist in our 
Nation. No Child Left Behind requires that States devise their 
own set of standards in order to achieve the law's goals. By 
June 2003, for the first time in our Nation's history, every 
single State in our Nation had developed a slate of standards 
for that particular State. This was done in the form of an 
accountability plan, which was approved by the U.S. Department 
of Education, which assures that every single child is 
receiving a high quality education in that State. Each State 
determined its own standards and how this plan was to be put in 
place. Each State determined how it helps its students meet the 
State-demanded standards. The President's 2005 budget request 
builds on this supplemental, yet vital, role of the Federal 
Government.
    Mr. Chairman, fiscal year 2005 is a critical year for the 
No Child Left Behind Act. The 2005 appropriations will fund the 
2005-06 school year, a year that will witness two significant 
milestones under the new law. First, States and school 
districts will begin testing all students in grades 3-8 in 
reading and math. With the information provided by these annual 
assessments, teachers will have the data they need to teach 
each child effectively, and parents will be empowered to make 
informed choices about their children's education.
    Secondly, all teachers will be highly qualified by the end 
of the 2005-06 school year. To be ``highly qualified,'' a 
teacher must hold a bachelor's degree and certification, 
licensure to teach in the State where they are employed, and 
have proven knowledge in the subject that they are teaching. 
There is no better way to improve education than by putting 
highly qualified teachers in every classroom. The No Child Left 
Behind Act recognizes this fact and will continue to work hard 
with the States to see that it comes true.
    The President's budget proposes $57.3 billion in 
discretionary appropriations for the Department of Education in 
fiscal year 2005. This represents an increase of $1.7 billion, 
a 3-percent increase over the 2004 level, and an increase of 
$15.1 billion, or 36 percent, since President Bush took office.
    As was the case in the President's previous education 
budget, most resources are dedicated to three major programs 
that fund the cornerstone of the Federal education policy. The 
first is the Title I Grants to Local Educational Agencies. The 
President is seeking $13.3 billion, an increase of $1 billion 
over the 2004 level.
    Title I helps children who are most in need to get extra 
help. They are the children most in danger of falling behind. 
Our determination to help these children, which I know is 
shared by the members of this committee, is reflected in the 
request that would complete a $4.6 billion increase, or 52 
percent increase in Title I funding since the passage of the No 
Child Left Behind Act.
    The President also is asking for his fourth $1-billion 
increase in for the Special Education Part B Grants to States 
program. Under the request, funding for Part B Grants to States 
would rise by $4.7 billion, or 75 percent, since 2001. This 
represents the highest level of Federal support ever provided 
for children with disabilities.
    And for the needs-based Pell grant program, the budget 
includes an increase of $856 million, for a total of $12.9 
billion. This level would fully fund the cost of maintaining 
the $4,050 maximum award and provide grants to an estimated 5.3 
million postsecondary students. I would point out to the 
committee that more than 1 million additional students are now 
receiving Pell grants than when President Bush took office.
    Included in this increase is a $33 million line for 
Enhanced Pell grants for State Scholars. We know that students 
who complete a rigorous curriculum in high school are more 
likely to pursue and succeed in postsecondary education. This 
proposal would provide an additional $1,000 for low-income 
postsecondary freshman who took challenging courses in high 
school.
    Another priority is President Bush's, ``Jobs for the 21st 
Century'' initiative, which would help ensure that middle and 
high school students are better prepared to succeed in 
postsecondary education and the workforce. These proposals 
focus on improving instruction to ensure students are 
performing on grade level in reading and mathematics and on 
increasing the rigor of secondary school curricula. The 
Department's share of the ``Jobs for the 21st Century'' 
initiative includes $220 million to improve the reading and 
math skills of secondary school students who are performing 
below grade level. The request for vocational education 
complements ``Jobs for the 21st Century'' by proposing a $1 
billion Secondary and Technical Education State Grants program 
that would more closely coordinate high school and technical 
education. It also includes $12 million to increase the number 
of States implementing the rigorous high school programs of 
study in order to prepare students for postsecondary education 
and the workforce. This program would work to improve academic 
achievement and successful transitions from high school to 
further education and the workforce.
    The 2005 request provides new funding for other ongoing 
priority areas as well, such as reading, expanding choice 
options and support for our postsecondary institutions serving 
a large percentage of minority students.
    Funding for Reading First State Grants and Early Reading 
First Grants would grow by a total of $139 million, more than 
12 percent. Reading First programs offer children through grade 
3 the benefit of research-based, comprehensive reading 
instructions designed to help meet the President's goal that 
all children are reading on grade level by the end of third 
grade.
    Funding for research would rise by 12 percent.
    Our budget also reflects the importance of extending 
educational options to parents and students, not just to those 
who can afford this freedom. No Child Left Behind has greatly 
expanded the choices available for students in low-performing 
schools, including both the option to transfer to a school that 
would better meet their needs and to obtain supplemental 
educational services like after-school tutoring. And this fall 
we will, for the first time, provide federally funded 
opportunity scholarships to low-income students in the District 
of Columbia.
    The President's 2005 budget would build on these 
achievements by investing an additional $113 million in 
expanding choices for students and parents. This would include 
$50 million for a new Choice Incentive Fund. This fund would 
provide competitive awards to States, school districts, and 
community-based nonprofit organizations to provide parents the 
opportunity to transfer their children to a higher performing 
public, private or charter school.
    The request also includes a $63-million increase for the 
Credit Enhancement for Charter School Facilities program. This 
program would assist with one of the largest obstacles standing 
in the way of charter school development, and that is finding 
decent facilities.
    And finally, Mr. Chairman, our request reflects the 
President's ongoing commitment to postsecondary institutions 
that serve large numbers and percentages of minority students. 
We are asking for a total of $515 million for these 
institutions, an increase of almost $21 million, or 4 percent, 
over the 2004 levels.
    Before I conclude, I want to mention some of the 
improvements we have made in managing the Department of 
Education programs. I knew when I came to this Department that 
we were going to expect States, school districts, and schools 
to implement the No Child Left Behind programs and to be 
accountable for the achievement of these students. If we wanted 
that to happen, we would have to demand the same kinds of 
accountability from ourselves and from the Department. Now, 
because of a concerted effort on the part of the Department 
staff, taxpayers can rest assured that their hard-earned tax 
dollars will be managed responsibly. Fiscal year 2003 marks the 
second consecutive year that the Department received an 
unqualified ``clean'' opinion from its financial auditors. Now, 
that may not seem like much to some. They may not see that 
worth celebrating, unless you know that the 2003 ``clean'' 
audit was only the third clean audit in the Department's 24-
year history and with the 2002 audit, it was the only clean 
audit opinion to be delivered by an outside audit firm.
    We also are continuing to make progress in all areas of the 
President's Management Agenda. Two weeks ago, the Office of 
Management and Budget announced that the Department received a 
major upgrade in its financial performance, moving from red to 
green status score. Our performance is ranked in the top one-
third of all Government agencies and reflects our continued 
determination to inject accountability in everything we do at 
the U.S. Department of Education.
    The President's 2005 budget request for education 
demonstrates his ongoing commitment to investing in educational 
excellence and achievement for all students. Nearly 50 years 
ago we all celebrated the historic ``Brown v. Board of 
Education'' opinion. In the years that followed, we found that 
educational access didn't automatically produce educational 
excellence or educational equity. We still have much work to do 
to ensure that a high-quality education is available to all 
students. I believe the No Child Left Behind Act is the logical 
next step to the Brown decision. The best way to eliminate 
racial inequity in our society is to close the achievement gap, 
which is the main purpose of the No Child Left Behind Act. By 
ensuring that all students count and their achievement is 
regularly assessed, we are extending civil rights and social 
justice. We have joined together to declare that it is no 
longer acceptable to shuffle students through the system and to 
console ourselves with excuses that poor students don't learn 
well. Our public schools not only serve the public, but in many 
ways they create the public. They will set the future course 
for our Nation.
    Mr. Chairman, when I last appeared before this committee, 
No Child Left Behind was a blueprint, it was a set of 
proposals. In the time since the No Child Left Behind law was 
passed, we have made tremendous progress in building a solid 
foundation of educational equity. Now we are in our third year 
of this legislation, and I believe we are witnessing a historic 
moment. No Child Left Behind extends the full promise of 
freedom to all of our Nation's students. I can think of no more 
effective program to ensure the future strength, security, and 
vitality of our Nation.
    I thank you, and I would be pleased to respond to any 
questions that you might have.
    [The prepared statement of Secretary Paige follows:]

Prepared Statement of Hon. Roderick R. Paige, Secretary, Department of 
                               Education

    Mr. Chairman, Representative Spratt, and members of the committee, 
thank you for inviting me to testify on behalf of President Bush's 2005 
budget for the Department of Education. Before I discuss the facts and 
figures, I think it is important to preface our discussion with some 
comments about the Federal role in education.

                       FEDERAL ROLE IN EDUCATION

    The No Child Left Behind Act--and the President's budget to support 
it--is best understood within the context of this Federal role. Because 
the Constitution was silent on the issue of public education, it is a 
responsibility of the States, including funding. However, we do have a 
national interest. Although the Federal Government has been involved in 
education since the late 1800s, it only took a prominent role with the 
enactment of the Elementary and Secondary Education Act of 1965. But 
the increased funds from this initiative proved to be an incomplete 
solution. In 1983, when the National Commission on Excellence in 
Education issued the groundbreaking report entitled, ``A Nation at 
Risk,'' they chose their words purposefully. They did not issue a 
report entitled, ``A Few States at Risk.'' Educational inequity does 
indeed place our nation at risk--and it is for this reason that the No 
Child Left Behind Act is an important component of ensuring our 
nation's well-being.
    Our role at the U.S. Department of Education is to supplement State 
and local efforts, not to supplant them. A uniform set of ``federal 
standards'' does not exist. No Child Left Behind requires that States 
devise their own set of standards in order to achieve the law's goals. 
By June 2003, for the first time in our nation's history, every single 
State, the District of Columbia and Puerto Rico had developed an 
accountability plan to ensure every single child is receiving the high-
quality education they deserve. Each State determined its own standards 
and now has a plan in place to help its students meet these State-
defined standards. The President's 2005 budget request builds on this 
supplemental-yet vital-role.

                  A KEY YEAR FOR NO CHILD LEFT BEHIND

    Mr. Chairman, fiscal year 2005 is a critical year for No Child Left 
Behind Act. The 2005 appropriation will fund the 2005-06 school year, a 
year that will witness two significant milestones under the new law. 
First, States and school districts will begin testing all students in 
grades 3-8 in reading and mathematics. With the information provided by 
these annual assessments, teachers will have the data they need to 
teach each student effectively--and parents will be empowered to make 
informed choices for their children's educational outcomes.
    Second, all teachers must be highly qualified by the end of the 
2005-06 school year. To be ``highly qualified,'' a teacher must hold a 
bachelor's degree in the core academic subject he or she teaches, hold 
a certification or licensure to teach in the State of his or her 
employment, and have proven knowledge of the subjects she or he 
teaches. There is no better way to improve education than by putting a 
highly qualified teacher in every classroom. The No Child Left Behind 
Act recognized this fact, and we continue to work hard with States to 
make it a reality.

                        MAJOR PROGRAM INCREASES

    The President's budget proposes $57.3 billion in discretionary 
appropriations for the Department of Education in fiscal year 2005. 
This represents an increase of $1.7 billion, or 3 percent, over the 
2004 level, and an increase of $15.1 billion, or 36 percent, since 
President Bush took office in 2001.
    As was the case in the President's previous education budgets, most 
new resources are dedicated to three major programs that form the 
cornerstone of the Federal role in education. For the Title I Grant to 
Local Educational Agencies program, the President is seeking $13.3 
billion, an increase of $1 billion over the 2004 level.
    Title I helps the children who are most in need of extra 
educational assistance, who are most in danger of falling further 
behind. Our determination to help these students--which I know is 
shared by the members of this committee--is reflected in a request that 
would complete a $4.6 billion increase, or 52 percent, in Title I 
funding since the passage of the No Child Left Behind Act.
    The President also is asking for his fourth consecutive $1 billion 
increase for the Special Education Part B Grants to States program. 
Under the request, funding for Part B Grants to States would rise by 
$4.7 billion, or 75 percent, since 2001. This represents the highest 
level of Federal support ever provided for children with disabilities.
    And for the need-based Pell grant program, the budget includes an 
increase of $856 million, for a total of $12.9 billion. This level 
would fully fund the cost of maintaining a $4,050 maximum award and 
providing grants to an estimated 5.3 million postsecondary students. I 
would point out to the committee that more than one million additional 
students are now receiving Pell grants than when the President took 
office.
    Included in this increase is $33 million for Enhanced Pell grants 
for State Scholars. We know that students who complete a rigorous 
curriculum in high school are more likely to pursue and succeed in 
postsecondary education. This proposal would provide an additional 
$1,000 for low-income postsecondary freshmen who took challenging 
courses in high school.

                       JOBS FOR THE 21ST CENTURY

    Another priority is President Bush's, ``Jobs for the 21st 
Century''s initiatives, which would help ensure that middle and high 
school students are better prepared to succeed in postsecondary 
education and the workforce. These proposals focus on improving 
instruction to ensure students are performing on grade level in reading 
and mathematics and on increasing the rigor of secondary school 
curricula. The Department's share of the Jobs for the 21st Century 
initiative includes $220 million to improve the reading and math skills 
of secondary school students who are performing below grade level.
    The request for vocational education complements Jobs for the 21st 
Century by proposing a $1 billion Secondary and Technical Education 
State Grants program that would more closely coordinate high school and 
technical education. It also includes $12 million to increase the 
number of States implementing rigorous high school programs of study in 
order to prepare students for postsecondary education and the 
workforce. This program would work to improve academic achievement and 
successful transitions from high school to further education and the 
workforce.

                            OTHER PRIORITIES

    The 2005 request provides new funding in other ongoing priority 
areas, such as reading, expanding choice options and support for 
postsecondary institutions serving large percentages of minority 
students.
    Funding for Reading First would grow by $139 million, or more than 
12 percent. Reading First offers children in grades K-3 the benefits of 
research-based, comprehensive reading instruction designed to help meet 
the President's goal that all children read on grade level by the end 
of third grade.
    Funding for research would rise by 12 percent under the budget 
request to help us better evaluate what works in education.
    Our budget also reflects the importance of extending educational 
options to all parents and students--not just to those who can afford 
this freedom. No Child Left Behind has greatly expanded the choices 
available to students in low-performing schools, including both the 
option to transfer to a school that will better meet their needs and to 
obtain supplemental educational services like after-school tutoring. 
And this fall we will for the first time provide federally funded 
opportunity scholarships to low-income students in the District of 
Columbia.
    The President's 2005 budget would build on these achievements by 
investing an additional $113 million in expanding choices for students 
and parents. This includes $50 million for a new Choice Incentive Fund. 
This fund would provide competitive awards to States, school districts 
and community-based nonprofit organizations to provide parents the 
opportunity to transfer their children to a higher-performing public, 
private or charter school.
    The request also includes a $63 million increase for the Credit 
Enhancement for Charter School Facilities program. This program will 
assist with one of the biggest obstacles to starting a charter school-
finding and affording a decent facility.
    Finally, our request reflects the President's ongoing commitment to 
postsecondary institutions that serve large numbers and percentages of 
minority students. We are asking for a total of $515 million for these 
institutions, an increase of almost $21 million, or 4 percent, over the 
2004 level.

                        MANAGEMENT IMPROVEMENTS

    Before I conclude, I want to mention some of the improvements we 
have made in managing the Department and its programs. I knew when I 
came to the Department that if we were going to expect States, school 
districts and schools to implement No Child Left Behind and be 
accountable for the achievement of students, we would have to demand 
that same kind of accountability from ourselves.
    Now, because of a concerted effort on the part of Department staff, 
taxpayers can rest assured that their hard-earned tax dollars will be 
managed responsibly. Fiscal year 2003 marked the second consecutive 
year that the Department received an unqualified ``clean'' opinion from 
its financial auditors. That may not seem like something worth 
celebrating, unless you know that the 2003 ``clean'' opinion was only 
the third ``clean'' audit in the Department's 24-year history. And, 
along with the 2002 audit, they are the only ``clean'' opinions to be 
delivered by an independent auditor.
    We also are continuing to make progress in all areas of the 
President's Management Agenda. Two weeks ago, the Office of Management 
and Budget announced that the Department received a major upgrade on 
financial performance-moving from a RED to GREEN status score. Our 
performance is ranked in the top one-third of all government agencies 
and reflects our continued determination to inject accountability into 
everything we do here at the Department of Education.

                               CONCLUSION

    The President's 2005 budget request for education demonstrates his 
ongoing commitment to investing in educational excellence and 
achievement for all students. Nearly 50 years have passed since the 
historic Brown v. Board of Education decision. In the years that 
followed, we found that educational access did not automatically 
produce educational equality. We still have much work to do to ensure 
that a high-quality education is available to all students. I believe 
the No Child Left Behind Act is the logical next step to the Brown 
decision. The best way to eliminate racial inequality in our society is 
to close the achievement gap. By ensuring that all students count and 
their achievement is regularly assessed, we are extending civil rights 
and social justice. We have joined together to declare that it is no 
longer acceptable to shuffle students through the system and console 
ourselves with excuses for poor student achievement. Our public schools 
not only serve the public; in many ways, they create the public. They 
will set the future course of our Nation.
    Mr. Chairman, when I last appeared before this committee, No Child 
Left Behind was a blueprint, a set of proposals. In the time since No 
Child Left Behind became law, we have made tremendous progress in 
building a solid foundation for educational equity. Now as we enter the 
third year of this legislation, I believe we are witnessing an historic 
moment. No Child Left Behind extends the full promise of freedom to all 
of our nation's students. I can think of no more effective program to 
ensure the future strength, security and vitality of our nation.
    Thank you. I would be pleased to respond to any questions you may 
have.

    Mr. Hastings. Thank you, Mr. Secretary. I appreciate your 
testimony.
    And I would advise members, as I mentioned at the outset, 
that the Secretary is on a time schedule, but obviously he 
wants to respond to all of our questions, so I would ask 
everybody to adhere as much as you can to the 5-minute rule, 
and we will be OK. I will try to expedite that.
    Mr. Secretary, I want to start the questioning just by 
saying something that you alluded to and I alluded to in my 
opening remarks, and that is that since President Bush became 
president, funding for educational dollars has increased 
dramatically, and specifically with the No Child Left Behind. 
The question I have is do you feel that what we have funded on 
No Child Left Behind is sufficient for the States and the local 
school districts to successfully implement No Child Left 
Behind?
    Secretary Paige. Mr. Chairman, I am certain of that point. 
Nothing could be clearer. The No Child Left Behind Act is 
sufficiently funded to accomplish the goals of the Act. The 
barriers in front of the accomplishment of the No Child Left 
Behind Act are not financial barriers. It is true that we are 
experiencing tight money situations in many of our States and 
school districts, but the Federal growth and the Federal amount 
for achieving the Federal goals is quite sufficient.
    Mr. Hastings. And that is primarily, as you pointed out in 
your testimony, because the Federal role is a supplement to 
what has historically been a responsibility of locals and State 
government.
    Secretary Paige. Precisely.
    Mr. Hastings. I have to say, just in closing, in my State, 
in Washington State, we had State-wide testing prior to No 
Child Left Behind, and your Department acknowledged that test 
as being a test that would comply with No Child Left Behind. 
When I have been out in my district talking to various school 
districts about this, they tend to be very enthusiastic about 
the concepts and the accountability of No Child Left Behind; 
they worry about the testing. And, of course, I point out to 
them that is something that they can affect on the State level. 
Is my State somewhat similar in that regard?
    Secretary Paige. Yes, it is.
    Mr. Hastings. OK, good. Thank you, Mr. Secretary.
    Secretary Paige. Thank you.
    Mr. Hastings. Mr. Spratt.
    Mr. Spratt. Mr. Secretary, the President's budget for this 
year didn't come to us with the customary level of detail. We 
don't have the 5 to 10-year funding levels for discretionary 
programs, but we do have a computer run from OMB. And this 
computer run shows that for 2006, year after next, the function 
we are dealing with, which is function 500, is cut by almost $2 
billion below the level that is requested for 2005, and for the 
next 3 years it stays below that level by about $2 billion. 
Furthermore, it appears to us, looking through the computer 
run, that these cuts are reflected in every office and account 
of the Department of Education; it affects education for the 
disadvantaged as well as the office of elementary and secondary 
education programs, special education, discretionary student 
financial assistance.
    What you are effectively saying with this budget, 
particularly in the outyears, is that we will plus it up a bit 
this year to make it look good, but then the years succeeding, 
for the next 4 years, there will be less for all of these 
programs. For example, education for the disadvantaged: The 
amount allocated for this year's request is $15.2 billion, but 
next year it slips to $14.8 billion and never rises above $14.9 
for the next four fiscal year. Elementary and secondary 
education programs: The requested level this year for 2005 is 
$22.5 billion; next year, 2006, it drops to $21.9; and stays at 
or below that level. And that is true throughout here; you are 
raising it a bit this year, but then cutting it by basically $2 
billion over the next 2 years. What is the logic of that?
    Secretary Paige. Congressman Spratt, it is my understanding 
that long-term estimates are calculated by formula. OMB has 
advised us that the numbers beyond 2005 do not reflect detailed 
policy decisions by this administration; they are roughly held 
estimates. And so we will have to await the policy decisions to 
draw conclusions about what the funding level will be in the 
years beyond 2005. The budget for 2005 is holding down 
increases. Outside of defense, homeland security, and 
international activities, the overall growth proposed is only 
about half of 1 percent. The outyear numbers are consistent 
with constrained spending, but they don't represent, as of this 
time, policy decisions.
    Mr. Spratt. Is it your plan to seek, in 2006 and 2007 and 
2008 and 2009, enough money so that you can at least maintain 
the current level of purchasing power, current services for all 
of these vitally important accounts?
    Secretary Paige. It is my intent to seek and advocate for 
that level of funding that is sufficient to accomplish the 
goals of the No Child Left Behind Act and the other programs 
inside of the U.S. Department of Education, and I am confident 
by the fact that despite all of the competitive forces for the 
Federal dollars now, the evidence is clear that the President 
has been very good in providing the support for education that 
is needed. Now, I anticipate that to continue.
    Mr. Spratt. But you are not getting it this year. I mean, 
OMB hasn't been able to see fit to provide you the money that 
you, I think, would acknowledge you need. If you are going to 
close the achievement gap, you have got to close the funding 
gap, right?
    Secretary Paige. Well, I don't believe that it has been 
established that this funding linkage with performances is that 
tight. In fact, if that were true, then the Washington, DC 
public schools would be one of the highest performing school 
districts in all of our Nation, and it clearly is not.
    Mr. Spratt. Well, let me ask you about that. The 
President's budget, by our calculation, provides $9.4 billion 
less than Congress and the President promised by way of 
authorization when the No Child Left Behind Act was passed. My 
school districts think that they have been the victims of a 
giant bait-and-switch scheme, where they were told that there 
would be more accountability expected, the standards would be 
more rigorous, but at the same time there would be more 
funding, and that funding was represented specifically in the 
bill that was passed in 2002. Nevertheless, the funding level 
next year will be $9.4 billion less than what the authorization 
levels would have seemed to imply just a couple of years ago.
    What do the authorization levels mean; were they just an 
arbitrary stab in the air? Was there not some sort of 
expression here that this is what is needed or this is what is 
desirable, and this is what we will shoot for, or is it just a 
number?
    Secretary Paige. My understanding is the authorization 
levels represent a cap on spending, that there can be no more 
than that amount spent. In fact, in my limited time here in DC, 
I have noticed that it is not at all unusual to see a 
difference between that which is authorized and that which is 
appropriated.
    Mr. Spratt. It is unusual to see this big a difference, 
$9.4 billion, in a program that is about $30 billion. And I 
think your answer, then, is the authorization levels are not a 
desirable level, they are an upper cap, and you can do with 
$9.4 billion less than the authorization.
    Secretary Paige. Mr. Congressman, I think that the debate 
about money masks the real problem in public education in the 
United States of America, and it takes the focus away and it 
also says to the people in our Nation that the real reason why 
our students are performing at the levels they are performing 
now--which is clearly an undesirable level--is money, and I 
just disagree with that wholeheartedly.
    Mr. Spratt. Aren't you asking the school districts who are 
subject to No Child Left Behind to do more than ever in 
compliance with this Act in order to qualify for Federal 
funding?
    Secretary Paige. Yes, sir, we really are, and also we are 
supplying funds more than ever. This is historical in terms of 
the amount of money that we are providing for them. In fact, if 
this budget is approved, the increase in Title I will be in the 
neighborhood of 42.5 percent.
    Mr. Spratt. Can we be assured that that is going to last in 
2006 and 2007 and 2008, given the fact that we have got a 
shrinkage in the total pie?
    Secretary Paige. I am very confident that the President is 
so committed to this as a priority that whatever amount that is 
needed to cause the achievement that we are seeking will be 
provided, or be requested at least.
    Mr. Spratt. One particular point and I will turn it over to 
others. The President, in his campaign, pledged to increase 
Pell grants for first-year college students, but this budget 
would still freeze the maximum Pell grant for the third 
straight year. And with the strictures on discretionary 
spending we are seeing in this budget, I don't see any increase 
in the Pell grant in sight in the individual Pell grant. Not in 
the overall funding, in the individual Pell grant, the maximum 
Pell grant.
    Secretary Paige. Well, one might find some comfort in the 
fact that about 1 million more students now are receiving Pell 
grants than was the case when the President took office. And in 
addition to that, the growth in the enrollment of students in 
higher education is substantial. In fact, it is in the 
neighborhood of 7, 8 percent, and between 1996-99, it never 
increased in a single year more than about 2.5 percent.
    Mr. Spratt. But if you have more students seeking Pell 
grants and a fixed amount allocated for Pell grants, when you 
divide one into the other, you get a smaller Pell grant, don't 
you?
    Secretary Paige. The average Pell grant recipient--the 
amount that they receive has not been substantially reduced. 
More students are receiving Pell grants, but it has not 
impacted in a way that would reduce the average amount of a 
Pell grant.
    Mr. Spratt. Thank you very much, Mr. Secretary.
    Secretary Paige. Thank you.
    Mr. Hastings. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for coming. Thank you for 
leaving the good life you had in Texas to come up here to put 
up with the rigors of Washington, DC. It takes a special person 
to do that, and obviously you are that person.
    I do support No Child Left Behind. When I was in the State 
senate, I thought if anything came from Washington it was an 
unfunded mandate and I was automatically against it. I think a 
little different now because I think this is different. And 
critics in several States are asserting that the cost of 
implementing this Act is prohibitive and that the law really 
amounts to nothing but an unfunded mandate, and it is my 
understanding, of course, that States have the right to forego 
these funds that are awarded under the law.
    I want to ask you how costly is it for the States to 
implement the law, and what do you say to those who call it an 
unfunded mandate? Our House of Delegates in Virginia just did a 
resolution against this thing, and I would like to know what 
your answer is to that.
    Secretary Paige. The information we have on costs, 
especially that part of the costs that is associated with the 
accountability--the development of the tests and the 
implementation of tests--this turns out to be where a lot of 
the complaints about cost reside.
    Mr. Schrock. That the States are going to pay for it 
whether we do it or not, because they have got to do some kind 
of testing?
    Secretary Paige. Not only that. This budget provides around 
$400 million for that purpose, and the earlier budgets provided 
$390 million for that purpose. A researcher at Harvard 
University computed what they determined to be the amount of 
money that would be spent to do that, and they found out it 
would be less than 1 percent of the average per pupil 
expenditure. And to spend less than 1 percent of the average 
per pupil expenditure in the United States, which is about 
$8,700 now, for accountability to measure or give you some clue 
in how much growth that should be. Just recently, in fact, just 
today, I saw a research study that was done by a person in 
Massachusetts, which is clearly not a conservative hotbed, that 
estimated the cost of this assessment to be about $20 per 
child, about $20 per child out of the $8,700 that we spend on a 
child for assessment. I think that we are drastically 
underspending. And, finally, even those States that have 
already developed these accountability systems are eligibile to 
share in this fund as well, so they might even make money above 
what their cost is going to be. It is clearly a bogus argument 
about the cost of assessment.
    Mr. Schrock. And I agree with the chairman. In his opening 
comments, he suggested that money does not equate to results, 
and I absolutely agree with that. My wife is a school teacher; 
she tells me that every single day.
    In your opinion, is there a link between per pupil 
expenditure and the educational results? And why is it that so 
many school districts with high pupil expenditures demonstrate 
low achievement scores, as you mentioned DC, which I believe 
has the highest per pupil expenditure and one of the lowest 
scores in America?
    Secretary Paige. The closest link is the efficiency of the 
expenditure, how wise is the expenditure that takes place. And 
we find that there are many cases where the systems that are in 
place, and the programs that are in place, the pedagogy that is 
used can offset the amount of spending, and you can pile money 
on top of that until you turn purple, and you won't change the 
performance of the students. You have to look and see how 
wisely those dollars are spent.
    Mr. Schrock. We need to get parents involved in the 
education of their children, and that just isn't happening 
these days, unfortunately.
    Secretary Paige. Not nearly enough.
    Mr. Schrock. No. You know, despite sizeable spending 
increases, some on the other side of the aisle have criticized 
the lack of full funding of the authorization ceilings for the 
No Child Left Behind Act, particularly Title I programs. Yet, 
when Democrats were in charge of both the Congress and the 
White House, appropriated levels for these same education 
programs were routinely below the authorized ceilings.
    In your opinion, and you may not want to answer this, do 
you think that the debate over this ceiling is driven mostly by 
election year antics, or do you think there is real substantive 
issue at stake here?
    Secretary Paige. Whatever its purpose, I see it as one of 
the most devastating things that is impeding the progress in 
student achievement. They are sending the wrong message. It is 
masking the analysis of the programs that could point out some 
of the other aspects of the programs that need our attention. 
It is true that we need funding, and we need adequate and 
sufficient funding, but there are many other aspects of the 
pedagogical system that need examining, and right now nobody is 
paying attention to that because the emphasis is all on how 
much money we are spending, as if victory is measured by how 
much money we spend.
    Mr. Schrock. I agree. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Hastings. Thank you, Mr. Schrock.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Let me follow up on the initial comment that my colleague 
from Virginia made about the Commonwealth and the fact that the 
majority-controlled, Republican majority-controlled House in 
Virginia just voted 98-1 to reject the No Child Left Behind 
program. They did call it an unfunded Federal mandate. They 
objected to substituting arbitrary Federal goals of 
accountability for the State's own accountability program, 
which had in fact been achieving results. They objected to the 
fact that they had to spend almost $8 million to modernize its 
computer systems just to track No Child Left Behind goals, and 
then the Federal Government would come up with only $4.5 
million of the cost of that.
    Now, all of the people in Fairfax County that I represent 
agreed with that Republican resolution to reject the program. 
Fairfax County has a million people; twelfth largest school 
district in the country. It has 79 different languages spoken. 
About half of the limited English proficiency students in the 
State are in Fairfax County. But their legislators--and their 
educators, more importantly--tell me that they are getting 
punished for much of the results that they are achieving, 
particularly with disabled children and with the limited 
English proficient children.
    They get credit for 3 years of a child not being able to 
speak the English language, immigrant children, first 
generation American children. But it generally takes 5 to 7 
years. Once that 3-year period is up, then they don't get 
credit for having achieved their results, and that is one of 
the reasons why many schools are failing. In fact, one of the 
best schools in the State just failed solely because it had a 
disproportionate number of LEP, limited English proficiency, 
students there. They were told that the high school failed. 
This is a very affluent community, but they could send their 
children to other schools, such as a school that passed which 
was down in a very low-income area of Route 1 that serves 
children with behavioral and learning disabilities.
    This program is not working in my State. It is creating a 
great deal of resentment against the Federal Government. It 
seems arbitrary; it seems as though it was poorly thought out, 
and its implementation is even worse. That is why you get one 
of the few bipartisan resolutions that has passed the State 
legislature.
    I don't know where we are going with this, but, you know, 
when you take $9.4 billion less than the authorized level in 
this budget that you are supporting, it shows that we have very 
little flexibility to make up for these gaps and to respond to 
these concerns. I would like to know what you would say to 
them. Now, I will give you an opportunity to tell them that 
directly if you would be willing to sit down and have a 
meeting. I have a sense that some of your people are avoiding 
those meetings, but we are more than happy to set it up if you 
are willing to meet with our legislators and educators, 
particularly our superintendents. But we have got a problem, 
and I don't know where else to go to fix it than the person 
that started it, the Secretary of Education. So, Secretary 
Paige.
    Secretary Paige. Thank you. First of all, let me indicate I 
would be more than glad to accept an invitation to speak to any 
of the persons in Virginia who are concerned about this.
    Mr. Moran. Done. My staff just wrote that down.
    Secretary Paige. Yes, please. Secondly, I wrote every 
member of the Virginia legislature to explain our point of view 
and try to help clarify some of what I believe to be clear 
misunderstandings that underpin the decision that they made. 
First of all, I would be very complimentary of the school 
reform efforts in the State of Virginia. It has clearly been 
one of the States that has led our Nation in school reform, and 
they have got their standards of learning, and the way they 
have conducted themselves is clearly complimentary.
    Mr. Moran. But you overwrote it, Mr. Secretary.
    Secretary Paige. The State of Virginia's accountability 
plan has a goal of 70 percent of their students reaching 
proficiency. Seventy percent. That is to say, 30 percent are 
not required to reach proficiency. I have an idea who those 30 
percent are, I mean, who they represent. The No Child Left 
Behind Act requires 100 percent of students to reach 
proficiency. So our job, then, is to integrate those two 
systems, the very fine, complimentary system that Virginia has 
and the tenets of the No Child Left Behind law that was enacted 
by this Congress. That provided some tension, and this tension 
is being experienced, but there are solutions to that.
    I look forward to sitting down and talking to them, because 
I believe they want their children to have a fine education 
just as much as I do, and I believe that we can sit down and 
reasonably work these issues out. And this goes for every 
State, not just Virginia. We faced those kinds of problems in 
Louisiana. There is discussion going on in Utah, and there are 
some other issues like that. But these are just, I think, 
growing pains resulting from a law as complex as the No Child 
Left Behind Act. We are completely open for full discussion, 
and we are very flexible, inside the limits of the law that you 
ladies and gentlemen passed, in order to provide relief for the 
citizens there.
    Mr. Moran. Thank you, Mr. Secretary. We will set up that 
meeting.
    Mr. Hastings. Thank you, Mr. Moran.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Secretary, I am glad to hear, and I want to make sure I 
am not misunderstanding, that what you are saying about 
granting relief, you are not willing to accept--and I am glad I 
heard that--any child left behind as part of that relief.
    Secretary Paige. That is where the line is drawn.
    Mr. Diaz-Balart. Absolutely.
    Secretary Paige. And I also am not willing to depart from 
the congressional intent of the No Child Left Behind Act.
    Mr. Diaz-Balart. Mr. Secretary, a lot of States, and we 
keep hearing that, they are complaining that they are not 
receiving sufficient Federal funding, and yet the Department 
reports that there is more than, and I am looking here, $5 
billion in unspent Federal dollars which the States have access 
to. And OMB Director Bolton said that the surge in recent 
education spending, that some of those States have not been 
able to absorb it quickly enough. Can you explain why States 
are asking for more money when it seems they are not being able 
to spend the money that is already there? How is that working?
    Secretary Paige. Well, I would clearly be speculating with 
comments on the why, but we can say that a report that I 
received in the third week of December of last year showed 
better than $6 billion of unspent money, funds that were 
appropriated for use in education--some of it went all the way 
back to the year 2000. Reasons may vary, but the point is very 
clear, that although some has been drawn down now, there may be 
as much as $5 billion of unspent funds that were appropriated 
by the Congress for educational services to young students. And 
there has been kind of a rush to draw down some of those 
dollars, and that is, I guess, to be expected. But we think 
that sufficient planning and implementation of programs and 
thoughtfulness would require a different way of looking at it, 
let me just leave it like that.
    Mr. Diaz-Balart. Thank you, Mr. Secretary. Also, we keep 
hearing about this and you have been emphasizing that the 
debate shouldn't be just on money, debate should be on results, 
and I am encouraged by that, the statement and your actions. If 
you look at the Department of Education's budget, it is 
basically two-and-a-half times larger than it was in 1996, when 
the Republicans took control.
    You mentioned Pell grant funding. It has just skyrocketed, 
again, almost two and a half times greater than it was when the 
Republicans took control in 1996.
    The Department of Education Inspector General recently 
identified over $300 million in Pell grants that were issued to 
students who shouldn't have qualified, who misrepresented their 
income levels in their applications, et cetera. I know you have 
been emphasizing that as one of your main issues, and the 
President has. How is the Department taking action against 
fraud, this sort of fraud, which obviously means that that 
money is not available for others, or for increases in Pell 
grants? What do you think you can do better or what are you 
doing to try to eliminate fraud in Pell grants and other areas, 
but specifically in Pell grants, when the Inspector General 
identified $300 million?
    Secretary Paige. Identifying fraud throughout the system 
has been one of our priorities, and I have with me Associate 
Deputy Secretary Todd Jones, who will comment on that, specific 
to Pell grants.
    Mr. Jones. One of the President's proposals is to allow 
what is called the IRS data match, which will allow the 
Department to match what people say about how they qualify for 
Pell grants against what they actually tell the IRS that they 
have earned in a given year. Interestingly, it doesn't 
necessarily mean it is all people who are seeking or qualifying 
for more Pell grants than that for which they are entitled, but 
some who actually are entitled to more Pell grant than they 
thought they were, based on that data. That requires action, 
however, by the Ways and Means Committee to change the tax laws 
to permit that, and so that is before the Ways and Means 
Committee at this time.
    Mr. Diaz-Balart. And lastly, Mr. Secretary, I just want to 
commend you for sticking to your guns of demanding performance, 
demanding results. I know that whenever you ask anyone, 
including bureaucracies, to show performance and show results 
for the money that they are receiving, whether it be here in DC 
or even with the States and local school systems, we are going 
to find a lot of complaining, but I want to thank you for 
sticking to your guns and making sure that, again, if school 
systems want to leave 30 percent behind or 20 percent behind or 
5 percent behind, I want to thank you for not accepting that as 
a given and something that has to happen, and for sticking to 
your guns for the kids in this country. Every single one of 
them deserves an opportunity to learn, and every single one of 
them can learn. Whether school districts want to or not, they 
can learn. Thank you, sir.
    Secretary Paige. Thank you very much. I would just express 
my appreciation to you for that because I feel that we are 
facing an unrecognized education crisis in the country, about 
education and the amount of the achievement gap that we have--
especially the devastating impact that that has on minority 
kids. And I just am unyielding about that.
    Mr. Hastings. Thank you.
    Ms. Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman.
    An article in the Chronicle of Higher Education analyzing 
the President's budget ends with this quote from a higher 
education analyst: ``The President's budget starts with frozen 
student aid funding, adds in higher loan limits, and requires 
students to pay a fee to obtain their loans. The result? 
Students are going to have one huge mountain of bigger debt to 
swallow if these proposals pass.'' I would add to that that 
these proposals on the part of the administration overlay a 
tremendous increase in tuition experienced throughout the 
country.
    I would like to share with you a little bit about the 
pressures on college students in my own district and State. I 
come from the State of Wisconsin. My congressional district has 
three of the University of Wisconsin system campuses. Wisconsin 
began last year with a projected budget deficit of $3.2 billion 
over 2 years, and a lot of tough decisions had to be made, 
among them the university budget was cut by $250 million 
systemwide over 2 years, and the campuses were told that they 
could recoup some of those dollars through tuition increases.
    As I mentioned, there are three University of Wisconsin 
system campuses in my district: the University of Wisconsin 
Madison Campus, with well over 40,000 students attending, where 
they saw a tuition increase this year of 9 percent and next 
year are promised another tuition increase of 9 percent again; 
the University of Wisconsin Whitewater Campus saw an 8.5-
percent increase; and the University of Wisconsin Baraboo 
Campus saw a 16-percent increase in tuition.
    In view of this, I know you have already been asked a 
couple of times about the failure to increase the maximum award 
for the Pell grant, but I wanted to start there. Given that 
college costs are rising so substantially, how do you justify 
this continued freeze, and when might we actually see the 
President make some progress on his earlier commitment to raise 
the maximum Pell grant award to $5,100 for college freshman? Is 
that something that you entertain in your long-term plans? And 
then I have several followups relating to other aspects of 
higher education funding.
    Secretary Paige. We are very concerned about the cost of 
higher education, but we are also aware of the fact that 
tuition increase and the actual cost of education is not the 
same. We can't make the case that the price and the cost is the 
same thing. And we have very little control over the tuition 
increase that the universities decide upon; they make those 
decisions based on internal information and their own volition.
    The 1 percent fee that you spoke of, some could certainly 
argue that that increases the cost to students, but we think it 
increases the benefit to students, especially for those 
students who are currently obtaining a loan from a guaranty 
agency. About 50 percent of those guaranty agencies, of which 
there are 37, pay that 1-percent guaranty fee for the 
recipient; the others do not. That 1 percent is Federal 
taxpayers' money, it is taxpayers' money, and it should come 
back to pay the cost of providing for the integrity of the 
system. Now, whether the guaranty agency decides to pay that 
for the student themselves or whether the students pay it 
themselves, it is a benefit to the system that those dollars 
are there to protect the system against defaulted loans and to 
keep the system's credibility high. So the 1 percent is not 
viewed by us as increasing the cost to students, as it is 
providing integrity for the program itself, which is a benefit 
to the student. And, by the way, I would add it is what helps 
keep the interest rate as it is, which is a benefit to 
students.
    Ms. Baldwin. Mr. Secretary, I have listened to your 
explanation of the 1 percent fee. I would tell you that in 
Wisconsin our graduates have a default rate roughly half of the 
national average, and so I guess some of my students see it as 
a 1-percent tax on them that is going directly to benefit 
others, but not them, and is making their higher education a 
little bit more out of reach.
    The last question I have about the concern that this 
administration may have on rising college costs is has the 
administration taken a position or a view on Congressman 
McKeon's Federal price control legislation? I know there has 
been a lot of discussion in Congress about H.R. 3311 and lots 
of concern raised about who that would truly help or penalize. 
Has the administration or have you, Mr. Secretary, taken a 
position on this legislation?
    Secretary Paige. Two points. The first one is that we have 
not taken a position on Mr. McKeon's initiative. The second one 
is that the 1-percent student loan fee for us in higher 
education is an idea quite different from the No Child Left 
Behind idea, in which the standards are provided by the 
individual States. So we don't distinguish between how the 
default rate happens in Wisconsin and other States, we see it 
as one default rate across the system.
    Mr. Hastings. Thank you very much.
    Mr. Garrett.
    Mr. Garrett. Thank you.
    And thank you, Mr. Paige, for being with us. I applaud your 
passion that you have for education and for the children, that 
they get the best education possible. In the years that I was 
in State government, it is something that I spent a 
considerable amount of time with, serving on the education 
committee in the State of New Jersey. During that time, New 
Jersey, in fact, was--you might use the expression--ahead of 
the curve inasmuch as we were coming up with what we called 
CCC, the Core Curriculum Content standards for the State. So we 
were already--before many other States, and before the Federal 
Government came down with such programs--developing our own 
system to put in place as to what each child would be 
instructed and required to learn before graduation.
    At the same time, I might add, we had legislation that I 
sponsored which called for not only looking into the classroom 
and always put the focus and the burden on the teachers, where 
so much emphasis is often placed as far as accountability, but 
also looking at the Department of Education, who spends the 
money, which I think is appropriate as well.
    I wasn't going to go down this road, but since I note in 
your opening remarks you talked about the proper role for the 
Federal Government in education, you indicate you say, because 
the Constitution was silent on the issue of publication. I 
remember Thomas Jefferson was once asked why is it that the 
Federal Government does not provide a public education for the 
students of this country back when he was President, and he 
responded, well, it is very simple, because the Constitution 
does not give us that authority. So perhaps you can enlighten 
me for the next time I go to a civics class and the class asks 
me if that is the case, what is the constitutional authority at 
all for the Federal Government to be involved in education 
funding.
    Secretary Paige. The Federal Government has been involved 
in a small way in public education funding since back in the 
early 1800s, when it provided Federal land to municipalities to 
build schools. But the main entry into funding in public 
education came in 1965 in Lyndon Johnson's war on poverty, when 
the Elementary and Secondary Education Act was enacted and 
funded at the level of about $1 billion. And what is the 
authority? The authority is simply the Federal Government's 
ability to attach conditions to the expenditure of the Federal 
funds, and that is the primary authority that is used even now.
    What happened in the No Child Left Behind Act is that the 
Congress was very clear about limiting even the Department of 
Education's ability to involve ourselves in some of the matters 
of State concern. For example, we are expressly prohibited from 
dealing with curriculum and things like that. All of those are 
State issues. So it is pretty well embedded into Federal law.
    Mr. Garrett. I was quizzed on that question one time and I 
honestly couldn't go and say, well, this is where it is in the 
Constitution either. So that is one of the interests that you 
bring that up here.
    Back in my State, when I was back in the State government, 
I asked our State department of education, of all the dollars 
that we spend in education, and New Jersey I think spends the 
most in the country--how much comes from the Federal 
Government? We spend around $14,000 per student in our New 
Jersey schools, and they said around 3 cents on the dollar 
actually comes from the Federal Government. And so like other 
States, their concern is what is the cost of compliance for the 
State of New Jersey and the other States as well. Has the 
Department done an analysis on a State-by-State breakdown as to 
what each individual State's cost of compliance is with the No 
Child Left Behind Act?
    Secretary Paige. No, I am not aware of a State-by-State 
breakdown on the cost of the implementation of the act.
    I am going to ask Tom Skelly, who is our budget officer.
    Mr. Garrett. OK.
    Mr. Skelly. No, Congressman, we don't have a study by 
State. But there has been some information, including the study 
the Secretary referred to earlier, in Massachusetts which found 
that the costs were being covered by the funds that the States 
were receiving from the Federal Government. That was just 
Massachusetts.
    Mr. Garrett. That simply addressed Massachusetts?
    Mr. Skelly. That is how I understand it, yes.
    Mr. Garrett. OK. And is the Department doing any other 
reviews as far as the other States, or is that the extent?
    Secretary Paige. That wasn't us, it was done by an 
independent group.
    Mr. Garrett. At the Department's request?
    Secretary Paige. There is no initiative that I am aware of 
in the Department that would examine the actual cost of 
implementing the law in each individual State.
    Mr. Garrett. OK. And the last question is, and you may not 
be able to get into the specifics since I know it is hard. In 
our States, where I hear from, of course, is the schools that 
have come out with failing grades and the repercussion that it 
has in the community, as I am sure you can imagine. Some of 
those schools that are the loudest complainers or bring 
attention to my office the most are schools that are, generally 
speaking, considered some of the best schools, not only in my 
district, but some of the best schools in the State. What is my 
response to them when they find themselves in that awkward 
situation?
    Secretary Paige. This is one of the things that we have had 
the most difficulty in communicating. First, the No Child Left 
Behind Act is a positive law, and it never uses the term 
``failing;'' it uses the term ``needing improvement.'' I will 
give you a personal example. In my district in Houston there is 
a school called Bel Air High School which is a premier high 
school any way you measure it. A very good high school. But 
that high school has a mix of students, and it was either the 
African-American students or the Hispanics students who failed 
to meet math standards that year. That school was identified 
then for improvement. So Bel Air can claim to be a great 
school, and it is, but it still needs improvement because some 
subpopulations are not receiving the quality education that 
they need.
    The No Child Left Behind Act is built so that you cannot 
just celebrate the fact that some of the students, some 
subpopulations, are doing well. If you leave any subpopulation 
behind, the Act identifies you as in need of improvement. We 
don't say you are failing, but we say you must improve so that 
you can bring along all the subgroups.
    Mr. Garrett. OK. Thank you very much for that.
    Mr. Hastings. Thank you.
    Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    Thank you very much, Mr. Secretary, for being here today. I 
just want to take a moment to react to Mr. Balart's concern and 
also raise a question or two.
    You know, the Constitution is a living document. The very 
spirit of the Preamble to the Constitution suggests that we 
should look out for the general welfare, and I think education 
is part of looking out for people. In the Constitution, you 
know, some of us were not included in the Constitution, and now 
with action of the Congress and other decisions, now people 
have made changes and we have made a lot of progress. But I 
recall in 1954, May 17, 1954, when the Supreme Court issued the 
decision in ``Brown v. the Board of Education.'' I was 14 years 
old, in the ninth grade, and I thought I would attend a 
desegregated school, would no longer travel by broken down 
buses or use hand-me-down books, and that didn't happen.
    I want to know from you, Mr. Secretary, have you seen any 
studies or reports showing that our public school system is 
becoming more segregated, that we are moving away from the 
spirit and the letter of the Supreme Court decision of 1954, 
and what the Supreme Court went on to say, ``with all 
deliberate speed'' in 1955?
    And then if you would just hold it for a moment. What is 
your vision with this budget? What is the vision of this 
administration with providing quality education for all of our 
children? And another thing that struck me, you said victory or 
success may not depend on the amount of money. But you know, 
money could be a down payment to help people get a little 
better education. I notice in one of the TRIO programs, Upward 
Bound, which means so much to young people in my district, I 
believe only 70 percent of the eligible students are 
participating, and you are freezing this important program. So 
I think you do need money. You need resources. I travel and 
spend a lot of time at many schools in my own district and all 
across the State of Georgia and all across this country. People 
need resources, they need money to help.
    So I just want you to respond.
    Secretary Paige. Thank you. May I begin, Representative 
Lewis, by saying your comments at the prayer breakfast were 
very touching. I appreciated them very much. And I want to 
continue by saying you are right, some of us were not mentioned 
in the Constitution, and some of us were left behind as far as 
the Constitution is concerned. Constitutionally, some of us 
still are being left behind. And the ones that are being left 
behind are primarily impoverished, minority, inner city, and 
some rural students. This country has some of the best high 
schools and elementary and middle schools in the world, but 
these schools, many of them are satisfied with measuring the 
average performance of the school and not looking inside the 
average and seeing down underneath it that their students are 
not doing well. And if they are celebrating their success, they 
are not paying attention to these kids that are underneath.
    My vision is a system that does not allow a school system 
to do that. While applauding how they are doing, like I applaud 
what Virginia is doing, I wanted to point out that 70 percent 
of Virginia students as a goal of achieving proficiency is a 
great goal, but 30 percent of them not required to do that is 
something that I would consider in need of improvement, because 
I believe that that 30 percent would be populated in large 
measure by kids who are underprivileged and minority kids 
primarily.
    And finally I want to straighten out the statement about 
victory being measured by money. What I intended to say, and I 
hope I said correctly, was that victory is not measured by 
money. To me, victory is only measured by student growth. Money 
is required in order to obtain student growth, but once we make 
sure that we have got a lot of money out there, that, to me, is 
insufficient in terms of meeting the goals that we seek. 
Students have to perform better, and right now students are not 
performing well, especially minority kids. In fact, all kids. 
Universities now have to remediate 30 percent of the students 
who they get right now from our public school system.
    Mr. Hastings. Thank you very much.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman.
    You know, Mr. Secretary, it is always perfunctory to thank 
someone that comes before a panel like this, but I have had the 
wonderful privilege of following your good work in Houston and 
other places, and I say to you with all of my heart that I just 
think that the children of this country are very blessed to 
have a man in the position that you are, with your acumen and 
your compassion and your commitment to each of them, and I 
truly mean that
    As it happens, some of us have tried to expand upon some of 
the ideas that you had all across the country, and in my case 
in Arizona. We passed the Arizona scholarship tax credit that 
allows people to contribute to funds who give scholarships to 
children to go to the school of their parents' choice, and then 
the contributor gets a dollar-for-dollar reduction in their 
income taxes. And the reason that it has been able to enjoy 
such a strong bipartisan cohesiveness is because, by and large, 
the contributors are the upper income members of society and 
the recipients are overwhelmingly the low-income children.
    Because one thing is sure, and your testimony has reflected 
this today, in a lot of the better schools that we have, 
sometimes those are under represented in terms of the 
impoverished or the minority children of this country, because 
wealthy families already have the ability to send their 
children anywhere they want, and it is time that we afford that 
same opportunity to the minority students, the impoverished 
students in this country. And in Arizona we now scholarship 
21,000 children under that program. It is the largest school 
choice program in the Nation. And it has taken children who 
were just, forgive me, Mr. Secretary, to the system a little 
bottom in the chair and turned them into royalty, and that is 
something that I think should cause the blood of all of us to 
turn to fire, because I really believe that if we can empower 
parents to do what is best for their children, they will not 
only do what is right for their particular child, but it will 
cause the public schools, the schools that are the traditional 
schools to respond to that activity.
    And if there is one thing that the No Child Left Behind 
Act, in my judgment, has done, is it has caused the schools to 
respond to some of these very, very real concerns. I just 
visited with the Under Secretary of Education just the other 
day about one of the schools in my district, and it was 
considered to be a great school, but because of your work they 
have responded and tried to make it better. And I would just 
encourage you in every way that I can to continue to 
incentivize, to encourage these States to do things like the 
scholarship tax credit, because it is working in Arizona, it is 
working in Florida, it is working in Pennsylvania now. And if 
there is anything that we can do to help empower parents, we 
nearly always do something good for the children.
    I have done a lot of commentary here more than anything 
else, but you mentioned it was $8,700 per student on a national 
average now. Our private schools that get these scholarships 
for children in Arizona are the most integrated schools in the 
State, and they do it for about a third of the money that you 
mentioned. Tell me what your reaction to that is.
    Secretary Paige. I think that is a reality, and it is an 
awful reality, because it denies many children an opportunity 
to grow like they should grow. And it also, in my view, denies 
the public school system the right and the ability to innovate 
and to be creative. When the public school system is protected 
by the monopolistic tendencies and structures that we have in 
place now, it does not at all promote creativity, 
accountability, and innovation. Where there is no consequence 
for substandard performance, no enterprise anywhere in the 
world can grow like that.
    So my support of choice is not to move children from one 
place to the other, it is to provide the kind of environment 
where schools can grow. I think that choice is a necessary 
condition for effective school reform; any reform short of 
providing that kind of choice falls short. And, finally, my 
example would be, here in the District of Columbia, on the last 
NAEP for urban cities, the fourth grade reading scores for 
Anglo Americans were at the top of any city in the United 
States of America. In the same classrooms the reading scores 
for African Americans were 70 points lower. And when we looked 
at the eighth grade reading scores, there were not enough Anglo 
members to be measured; all of them had exercised the choice 
that we are trying to provide for our other students. We think 
that all parents should have the same kind of choice. No one 
should be tied or chained to a school that is not serving them 
well, simply because their financial means dictate that they 
don't have that power.
    Mr. Franks. Well said, Mr. Secretary. And I just thank you 
for your commitment to future generations.
    Mr. Hastings. Thank you, Mr. Franks.
    Let me do a little bookkeeping here. I want to ask 
unanimous consent that all members be allowed 7 days to submit 
their questions for the witnesses or to put statements in the 
record. Without objection, so ordered.
    Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman.
    Secretary Paige, as a Texan, as a former resident of Harris 
County, I have deep respect for your lifelong commitment to 
education and helping the children of this country better 
themselves.
    Let me just speak as a father, as a former legislator in 
the Texas Senate, and as a Member of Congress on what I think 
is happening in education. At the State level, frankly, I think 
legislators have been worshiping at the altar of tax cuts, tax 
cuts at all cost, to the point that what States now are doing 
is underfunding our public schools, from kindergarten through 
12th grade, all the way through college education. As a 
consequence, more pressure is being put on local school 
districts and communities to fund education, and many of those 
are strapped and can't raise their property taxes or other 
taxes. So we are moving backwards, rather than forwards, in 
many areas.
    Let me give you a specific example. I like hearing people 
say money isn't the answer to quality education. I agree. We 
must have accountability. But no one can explain to me as a 
father of a second grader in the northern Virginia school 
districts that because of the lack of funding at the State 
level in Virginia of education, that when my second grader's 
class was moved from 18 students to 27 students the first week 
of this school year, that those children in that classroom are 
going to get a better education.
    Funding money is a necessary, but not sufficient, factor in 
ensuring a quality education, and I do want to point out that--
not that the Secretary has said this exactly, but others have 
said it--it is a logical fallacy to then suggest that, 
therefore, money is not an important factor in improving the 
quality of our children's education. Try to hire a teacher 
without money. Try to hire a tutor without money. Try to run 
after-school programs without money. Try to fund Pell grants 
without money. We all know money alone isn't the guaranty of a 
quality education, but I hope no one gets away with the 
allegation and the logical fallacy that money isn't an 
important factor in trying to ensure, along with 
accountability, a quality education for all.
    At the Federal level I think what is happening is that the 
administration and Republican leadership have, frankly, 
committed, in my opinion, themselves to irresponsible tax cuts, 
despite a war, despite the largest deficits in American 
history, and despite an economic slowdown. As a consequence, 
what we are doing at the Federal level is preaching No Child 
Left Behind with all good intentions, while in practice we are 
leaving millions of children behind. And I will commend the 
administration for some plus-ups in this budget, but despite 
the good intentions, I think the consequence of this budget, if 
it is not increased, will be that we will leave millions of our 
youth unable to afford a college education. Because it is 
simple mathematics; when tuition rates are going up 31 percent 
a year, as they are at Texas A&M University, Mr. Secretary, in 
your home State and mine, but Pell grants are locked in for the 
third year in a row, that means those low-income children are 
going to have a significantly larger gap that they cannot 
afford to pay, and many of them won't even try to go to college 
as a consequence. So we are leaving our youth behind there. By 
underfunding the No Child Left Behind Act by $9.4 billion, we 
are leaving millions of children behind. They are getting 
larger class sizes, they are getting fewer tutors, they are 
getting fewer after-school programs than they otherwise should.
    I am reminded--you know former Gov. Mark White, Mr. 
Secretary, and he told me a story about when he was running 
reelection and Bill Clements was opposing him, who later 
defeated Gov. White, supporters of the Governor came in and 
said, Governor, I want you to drown your opponent. You are a 
great Governor, I don't like your opponent, and I want you to 
drown him; here is a check. Gov. White looked at the check, 
looked at his friend, looked at the check again and handed the 
check back and said, ``you know, friend, with checks like this 
I can hardly get their toes wet.''
    You know, I think we ought to rename No Child Left Behind 
Act. You are doing some good things. You are taking limited 
resources and doing the best you can with them, but we are not 
being honest if we suggest that this level of funding really is 
consistent with the commitment, not just the rhetoric, of 
``leaving no child behind.'' We are cutting in this budget $379 
million in present day services to military children of parents 
17,000 of which from my district are presently fighting in 
Iraq. I appreciate some of the efforts the administration has 
made in this budget on Impact Aid, but it is an odd way to say 
thank you to our servicemen and women in Iraq that over the 
next 5 years we will cut Federal education funding for their 
children's education in real services by $379 million.
    Mr. Secretary, I know you will do the best you can with the 
budget you are given from OMB, and I respect that and I want to 
work with you on a bipartisan basis, but we are leaving, in all 
due respect, millions of children behind by a worshiping of tax 
cuts at the expense of our children and our youth's education. 
Thank you, sir.
    Secretary Paige. Thank you.
    Mr. Hastings. Thank you.
    Secretary Paige has to leave at 12:45, and I know there are 
a lot of members who want to ask questions, and I have been a 
bit lenient here. I am going to be a little more hardcore and I 
am going to ask unanimous consent that hereafter all questions 
be limited to 4 minutes, and I will gavel at 4 minutes. Is 
there any objection? Without objection.
    Mr. Wicker.
    Mr. Wicker. I guess it wouldn't have done me any good to 
object, but it sort of hurts my feelings that you begin to 
enforce that when it comes to my turn.
    Mr. Secretary, my friend, Mr. Edwards, is happy to claim 
you as a fellow Texan, but we all know that it is those early 
years that form the real basis of a man, and you are a 
Mississippi native, a product of our public school system, so 
let me claim you doubly over and say how proud we are of you 
down there in Mississippi.
    I would like to ask that we put up slide number 6, if we 
can, and just give you an opportunity to discuss this for the 
time that we can, Mr. Secretary.
    What we see here is in spite of a lot of talk about cuts in 
education, we can see that that top line there represents 
increases in education funding over the last number of years, 
and it is a figure that we can be proud of. Now, you have said 
that victory is not in dollars, and I think we all agree with 
that, but we can do a lot if we spend our dollars wisely.
    The truth of the matter is the Department of Education's 
discretionary budget has grown an average of 12 percent a year 
for the past 4 years. Title I has had a 12 percent growth rate 
for the past 4 years. Special education State grant funds have 
quadrupled and Pell grant funds are almost two and a half times 
what they were in 1996.
    So while we would probably like to spend a little more, we 
have done pretty well on the spending side of it. And for my 
good friend from Georgia, I share his support for the TRIO 
programs. I met with a group of individuals from Rust College 
just last Friday, Mr. Secretary, and I can tell you that in a 
time of program elimination and a time when we are really 
asking each of us to look at budget cuts, they were pretty 
tickled that our increase of last year from $827 million to 
$832 million occurred and that we are committed in this 
administration to keeping that level of funding for the TRIO 
programs. There may be some movement around in some of those 
figures, but the level of funding was much welcomed in that 
community that certainly supports the TRIO programs.
    Let me just give you an opportunity, though, Mr. Secretary, 
to ask you to comment on what we are going to do about this 
graphic, which indicates that while the increase in spending 
has been there, the scores have remained relatively level. What 
are our goals in the Federal Government to address the rather 
flat line in achievement as opposed to that pretty substantial 
increase in funding?
    Secretary Paige. The chart before us represents NAEP 
reading scores for 9-year-old students. It shows, since 1984, 
the reading score as measured by NAEP is essentially the same 
now as it was in 1994. Now, this is notwithstanding the 
emphasis that the Federal Government has put on reading. Before 
Reading First, there was the Reading Excellence Act that was 
funded at about $300 million a year, and there was a lot of 
activity about teaching how to teach reading. But we can see 
that it did not produce the kind of change in student reading 
ability that we are desirous of. But we can see that the 
funding continued to increase, and we continued to make the 
assumption that the reason the students are not reading better 
is that we are not spending enough money. So we tend to solve 
that problem through continued increases in funding.
    Increases in funding are necessary, but they also, in many 
cases, masks the debate about the programmatic structures. 
Right now we are talking a lot about funding. I have heard no 
discussion at all about the mechanics or the pedagogy or the 
method that people are using to teach reading. The assumption 
is clearly embedded in our mentality that if we spend more, we 
will change the performance, and I am not sure that that is 
supported by the facts.
    Mr. Wicker. Well, clearly something more than increased 
spending is necessary, as evidenced by that chart, Mr. 
Secretary.
    Secretary Paige. Absolutely. That is the bottom line. 
Something more than spending is required.
    Mr. Wicker. Thank you, sir.
    Mr. Hastings. Thank you.
    Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman.
    And thank you, Secretary Paige, for joining us today. 
Before I start my questions, may I please raise an issue with 
you that is very important to California? As you know, the 
Department of Education recently rejected all of the Fulbright 
scholarships from UC-Berkeley because of a problem with, of all 
things, FedEx.
    Secretary Paige. I didn't hear the last word, problem of 
what?
    Mrs. Capps. Pardon me?
    Secretary Paige. I didn't hear what you said.
    Mrs. Capps. Oh. The rejection of the applications for 
Fulbright scholarships from graduate students from the 
University of California at Berkeley because of a delivery or a 
pickup problem. And we are very concerned, of course, that 
students involved may be unfairly penalized for circumstances 
beyond their control. And I understand that yesterday the 
Fulbright oversight board did agree and made the decision to 
work with the University of California, and my bringing this up 
is to urge you, please, with the Department to work with the 
University of California so that a fair and equitable 
resolution would be the outcome to this situation.
    Secretary Paige. Yes.
    Mrs. Capps. Thank you. And speaking of higher education and 
graduate education, I noticed with great interest your 
discussion of No Child Left Behind as one of its goals being 
that all teachers will be fully qualified to teach by the year 
2005-06. And, of course, this impacts college loans for these 
students to continue their education and become qualified 
teachers, and that is one of my concerns. And others have 
raised here the number of changes to the student loan programs 
that result in a net cut of over $2.3 billion over 10 years, 
compared with OMB's estimate of current law by freezing Pell 
grants and other issues.
    But I want to ask you to respond on another part of No 
Child Left Behind, which is the mandate in Federal law to 
provide for Individuals with Disabilities Education Act, IDEA, 
and our Federal decision to fund our part of that at 40 percent 
of the cost to local school districts, and what happens when we 
don't meet our goal. That really is discrimination against both 
those students with disabilities and also, in fact, the general 
population or the regular school district that has to bear the 
cost, because special education is legally required. This 
administration is only providing half of what we said we would, 
as Federal legislators, when we enacted IDEA, that we promised 
we would do. And I am asking you does this administration 
support full funding of special education?
    Secretary Paige. Yes. May I begin by just making a comment 
about the Berkeley situation, since you brought it up?
    Mrs. Capps. Certainly.
    Secretary Paige. Our responsibility is to make sure that we 
make fair judgments based on the regulations that are before 
us. The regulation required the applications to be in by a 
specific date. Several schools did not get their applications 
in by that date. We didn't see it as fair to take one big 
university who got their applications in later than the date 
and provide them some additional extra credits and to deny the 
other ones who were late that same ability. So we saw only one 
way to go about including Berkeley, and that was to open the 
whole thing up again and treat everybody the same. What we did, 
rather, was work with the University and others to find a way 
through private sources to support these students that we are 
completely willing to be helpful with. What we cannot do, 
though, is to show a preference for any university, whether it 
is a big one or a small one. They all must meet the standards. 
And, simply, Berkeley could have met the standard simply by 
getting it postmarked on that date.
    Mrs. Capps. I understand.
    Secretary Paige. Rather, they failed to do that. It was 
clearly a failing on the part of that institution, and what 
they are trying to do is shift the burden and say that we did 
something unfair or bureaucratic, and we clearly did not.
    Back to the IDEA, the President is committed to increasing 
support for our local schools for our special education 
programs. It is true that at some point in our history a 
commitment was made to provide up to, as I read the legislative 
language, 40 percent of the average per pupil expenditure. We 
are now, with the President's proposal for 2005, we will reach 
50 percent of that--it will be at about 20 percent.
    But I think what is significant is that this represents the 
fourth $1-billion increase requested by this President. That is 
$4 billion of requests to move toward the 40 percent that you 
mentioned. To show how aggressive that is, you only have to 
look at what was done in the previous 8 years. And when you 
look at the previous 8 years, less than half of that, not even 
$2 billion, was requested in the whole 8 years; whereas, we 
have had $4 billion requested in just the three or 4 years that 
the President has been here.
    So I think that it would be fair to say that this President 
is very committed to students with disabilities. In fact, when 
we say, ``leave no child behind,'' we intentionally include 
students with disabilities most especially, because we believe 
they have greater needs than other students.
    Mr. Hastings. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you, Secretary Paige.
    Secretary Paige, there has been a lot of criticism, but 
only in Washington, about ``cuts'' in No Child Left Behind. We 
have added 43 percent more for No Child Left Behind. Then I 
started thinking, maybe what we did was we took away from all 
these other education programs, and we did eliminate some, so I 
thought we must have cut the education budget and yet in the 
last 4 years, that has gone up 36.8 percent. Only in this 
place, when you spend 36 percent more money, almost 37 percent, 
do people call it a cut.
    I will acknowledge one thing. We have had tax cuts, but we 
have had testimony before this committee that we would still 
have deficits with all the tax cuts. We would still have 
deficits. So sometime before we leave this place, I am going to 
hear people tell me where we cut spending, where they want to 
cut spending because I am only being criticized in this 
committee. In this committee, this majority seems to be only 
criticized for not spending more money. So thank you for 
advocating more education spending, thank you for spending 43 
percent more on No Child Left Behind, thank you for increasing 
your budget 37 percent, and I know you would like it increased 
more.
    The other thing I like is that you are realizing there are 
other ways that we can have impact. Let me ask you this. The 
other issue that I am interested in is the whole issue of 
grants for students. I have a daughter who is going to be 
applying for some, but what fascinates me is that I am 
beginning to wonder who gets the grants. Isn't it a fact that 
as we increase the Pell grant and increase other loans, the 
institutions just increase the cost of their tuition? 
Ultimately, who gets it? Is it the student, or is it the 
university?
    Secretary Paige. I think that you hit on a very sensitive 
but important point. The cost of the university is clearly a 
factor. I have with me Mr. Jones. I am going to ask him to 
comment on that because he has paid particular attention to 
that point.
    Mr. Jones. You are very right. The issue of what does a 
college education cost is one that universities and colleges 
simply cannot put a finger on. If they increase tuition, they 
don't demonstrate what you are gaining from those tuition 
gains: are there new services or are there new classes? What is 
being bought with that? So ultimately tuition is increased, so 
then students are put in the position of seeking more money or, 
and this is the other interesting part, the discounting that 
goes on--where universities have lower income students, they 
will offer grants or they will offer tuition discounts to 
individual students. That is where the difference is made up.
    Mr. Shays. And then when they get an increase in the grant, 
they get less of a discount from the school?
    Mr. Jones. Exactly.
    Mr. Shays. So in the end, the student hasn't benefitted, it 
has been the institution that has, correct?
    Mr. Jones. That is right.
    Mr. Shays. Thank you very much.
    Mr. Hastings. Mr. Secretary, I note the bewitching hour 
that you had mentioned to us has arrived. It is 12:45 p.m., and 
I know you had to get on the road, so I welcome you here and 
thank you very much for your testimony.
    I would remind all members that patiently waited and we 
apologize you didn't get a chance to ask your questions but by 
unanimous consent earlier we allowed you to ask questions and 
it will be a part of the record.
    Mr. Secretary, thank you very much for taking your time. 
Thank you very much for your full testimony on a variety of 
issues. This is the Budget Committee and we tend to focus more 
on the numbers but I think you have said very eloquently that 
learning and teaching is more than numbers and I thank you very 
much for your testimony. You are dismissed.
    Secretary Paige. Thank you, Mr. Chairman.
    [Additional questions for the record follows:]

                   Questions Submited for the Record

        SPECIAL EDUCATION FUNDING FOR LOCAL EDUCATIONAL AGENCIES

    Mr. Nussle: Since 1996, the Republican Congress has quadrupled 
special education funding. But--at least in the schools in my 
district--it's not making it to the classroom.
    How much of each year's IDEA increases would you say have gone 
directly to schools, and how much to the State education department?
    Secretary Paige: The formula for distributing funds under the 
Special Education Grants to States program limits increases in funds 
that may be set aside at the State level from 1 year to the next to the 
lesser of the percentage increase in inflation or the percentage 
increase in each State's allocation. Funds not set aside at the State 
level must be distributed to local educational agencies. Because State 
allocations have grown much faster than inflation, funds available for 
local educational agencies represent an increasing share of the funds 
provided to States.
    For example, for fiscal year 1996 at least 75 percent, or $20 
million, of the $26.671 million provided to the State of Iowa was 
required to be passed through to local educational agencies. For fiscal 
year 2004, at least 90 percent, or $97.195 million, of the $107.669 
million that we estimate will be allocated to Iowa must be passed 
through to local educational agencies. So, while the total grant for 
Iowa has grown by 304 percent (from $26.671 million to $107.669 
million), the minimum amount that is required to be passed through to 
local educational agencies has grown by 386 percent (from $20 million 
to $97.195 million). Correspondingly, the amount that may be retained 
by the State educational agency has dropped from 25 percent of the 
State's allocation in 1996 to 10 percent of the State's allocation in 
2004.

                   UNSPENT FEDERAL EDUCATION DOLLARS

    Mr. Nussle: Many States appear to be flooded with education 
dollars, and unable to spend it all. They are actually returning some 
to Treasury. Why is this happening?
    Secretary Paige: We believe that is a very fair question, which is 
why we decided to publicize the data on the very large amount of 
unspent Federal education dollars. As for the reasons why these dollars 
remain unspent, they are probably as varied as the 52 States and more 
than 14,000 school districts that receive Federal education funding. In 
some cases, States and localities have chosen to not spend the money 
until late in the grant cycle. In other cases, there may have been 
accounting errors that led local officials to overlook available 
Federal funds. In some cases, the funding may have been restricted to 
certain types of program activities that not all districts chose to 
implement. And in others it is possible that States were either slow to 
deliver funds or placed their own restrictions on how they could be 
used.

                   UNSPENT BALANCES OF FEDERAL FUNDS

    Mr. Ryun: It's been recently reported that the States have sent 
back over $5 billion in unspent Title I funds. Kansas sent back over $8 
million. My constituents-from teachers to school board members-are 
asking for more Federal funding and are unaware of these returned 
funds. If the States say they are desperate for education dollars, then 
why is this money not being spent; are the funding streams not flexible 
enough for the States?
    Secretary Paige: This was a bigger problem prior to the No Child 
Left Behind Act, which eliminated or consolidated many categorical 
programs and provided new flexibility in spending Federal education 
dollars. Most Federal education dollars now flow through large, 
extremely flexible State grant programs. Title I, for example, is 
virtually a local block grant for the more than 25,000 schools that use 
Title I funds to operate schoolwide programs. And new flexibility 
permits States and school districts to transfer funding among four key 
State grant programs: Improving Teacher Quality State Grants, 
Educational Technology State Grants, State Grants for Innovative 
Programs, and Safe and Drug-Free Schools and Communities State Grants.
    Mr. Ryun: Are States not able to fulfill the requirements tied to 
the funds?
    Secretary Paige: I do not believe this is a significant reason for 
unspent balances, and as I just stated, the new flexibility provided by 
No Child Left Behind makes it even more unlikely that States or school 
districts would send money back because they can't find a way to use 
it.

              PROVIDERS OF SUPPLEMENTAL EDUCATION SERVICES

    Ms. Brown-Waite: Secretary Paige, as a fellow educator devoted to 
seeing each child obtain a quality education, I applaud you for your 
efforts and commitment to ensuring that the goals and spirit of No 
Child Left Behind become a reality. I have the utmost respect for you 
and all the work you have done in the realm of education. However, I 
have come across a newspaper article which highlights some disturbing 
information. This past Sunday, February 8, 2004, the Tampa Tribune 
printed an article with the headline ``Quality of No-Child-Left-Behind 
Programs In Question.'' I would like to highlight a few excerpts from 
this article.
    To begin, ``At a tae kwon do center in Morris County, eight 
children who have been bussed from Patterson, practice martial arts, 
make instant pudding and play a game of telephone, whispering a word 
down the line. This, too, is deemed tutoring * * * Taxpayers are 
funding all of this. The untrained college student is being paid $25 an 
hour. The tae kwon do center gets $1,550 per Saturday session it runs. 
The after-school program, which runs 7 months, takes in $1,164 a 
child.''
    Upon further reading, you will come across an individual named 
Karen Helmstetter. According to the article, she abandoned her tutoring 
plans of mathematics and reading and substituted it for a lesson plan 
based on teaching about the human body and senses. The article quotes 
Ms. Helmstetter as saying, ``Did the children come in knowing about 
their body system? No, that's how we are going to judge the success of 
the program.'' Ms. Helmstetter's curriculum and criteria for success 
lack any scientifically backed methods to gauge an appropriate rate of 
success. Given this fact, how does the Government monitor and measure 
the success of the various programs it funds?
    Secretary Paige: The Tampa Tribune article you refer to, which 
originally appeared in the Bergen Record, looks at supplemental 
educational services providers in New Jersey. The location is 
important, because under the law it is the State educational agency, 
working with local school districts, that is mainly responsible for 
monitoring the effectiveness of such providers. More specifically, 
section 1116(e)(4)(D) of the Elementary and Secondary Education Act 
requires States to ``develop, implement, and publicly report on 
standards and techniques for monitoring the quality and effectiveness 
of the services offered by approved providers,'' as well as procedures 
for withdrawing approval from providers that do not increase the 
academic proficiency of the students served.
    If, and I must say I hope this is not the case, an approved 
provider is offering martial arts training rather than academic 
services, it is unlikely that the academic proficiency of the students 
it serves will improve sufficiently for it to remain on the list of 
State-approved providers. Moreover, while we do encourage States to 
approve a wide range of providers, in order to ensure that services are 
available for as many eligible students as need them, I would hope that 
no State would ever approve a provider that offers martial arts 
instruction in the first place.
    Also, a school district is permitted to terminate services from a 
provider if the provider does not meet the achievement goals and 
timetable that are included in the agreement that must be arranged 
between the district and the provider for each student.

       STANDARDS FOR SUPPLEMENTAL EDUCATIONAL SERVICES PROVIDERS

    Ms. Brown-Waite: What are the standards used?
    Secretary Paige: As I indicated earlier, the specific standards for 
monitoring providers are developed by States as part of their statutory 
role in maintaining a list of approved providers. The statute is clear, 
however, that the services must focus on academic enrichment, be based 
on research, and be both consistent with the instruction provided by 
the school district and aligned with State academic standards. In 
addition, providers must have a demonstrated record of effectiveness in 
improving academic achievement. These basic requirements should have 
prevented some of the providers described in the Tampa Tribune article 
from gaining State approval.
    Ms. Brown-Waite: How did you arrive at those standards?
    Secretary Paige: Again, it is the States that are responsible for 
developing standards and techniques for monitoring provider 
effectiveness. However, as indicated in Department guidance on 
supplemental educational services, those standards and techniques 
should be consistent with the initial, statutory criteria that States 
use to identify approved providers.

       APPROVAL AND MONITORING OF EDUCATIONAL SERVICES PROVIDERS

    Ms. Brown-Waite: In my opinion these programs do not accomplish the 
purpose of No Child Left Behind, nor do they work to truly educate 
children. My question to you is how do we, as a government, work to 
prevent programs such as the two I've mentioned from squandering 
precious tax dollars?
    Secretary Paige: I believe the structure established by the 
statute, involving States and school districts in approving and 
monitoring the effectiveness of services, combined with the requirement 
that providers regularly notify parents of the progress their children 
are making, will ensure that poor quality providers are quickly weeded 
out and removed from the State-approved list. In addition, the 
Department's Office of Elementary and Secondary Education has 
restructured its Title I monitoring procedures to focus on determining 
whether States and school districts are properly carrying out the key 
requirements of the No Child Left Behind Act. When we visit States, we 
now look at such issues as whether they are implementing the 
supplemental service provider approval process as called for in the 
Act.
    Ms. Brown-Waite: How do we make sure that programs committed to 
teaching kids how to read, write, and calculate math problems receive 
funding?
    Secretary Paige: Under the statutory criteria that States are 
required to apply in identifying and approving supplemental educational 
service providers, those are the only programs that should be placed on 
the State-approved list of providers.
    Ms. Brown-Waite: How do the programs like the two I've mentioned 
receive funding?
    Secretary Paige: It is possible, particularly at this early stage 
of implementing the law, that there were problems in the State approval 
process, and that the statutory criteria for providers were not 
properly applied. It is also possible that the providers in question 
misrepresented the nature of their programs during the application 
process.
    Ms. Brown-Waite: Does this problem exist due to a flaw in the 
qualification requirement for programs to receive funding?
    Secretary Paige: No, I believe the statutory and regulatory 
requirements for approving and monitoring supplemental educational 
service providers are adequate, and that if States and school districts 
comply with these requirements it will be very difficult, if not 
impossible, for non-academic providers to receive funding.

       STANDARDS FOR SUPPLEMENTAL EDUCATIONAL SERVICES PROVIDERS

    Ms. Brown-Waite: What are the standards used?
    Secretary Paige: As I stated earlier, the statute requires services 
to be focused on academic enrichment, based on research, consistent 
with the instruction provided by the school district, and aligned with 
State academic standards. Providers also must have a demonstrated 
record of effectiveness in improving academic achievement.

 REMOVAL OF INEFFECTIVE PROVIDERS OF SUPPLEMENTAL EDUCATIONAL SERVICES

    Ms. Brown-Waite: What steps are being taken to prevent further 
waste of tax dollars?
    Secretary Paige: Under the law, it is up to States and school 
districts to take any measures that may be necessary to remove 
ineffective or fraudulent providers from the program. In addition, as I 
mentioned earlier, as we monitor State implementation of Title I, we 
will examine State implementation of supplemental services 
requirements.

        PROGRAM ELIMINATIONS IN THE 2005 BUDGET AND NCLB FUNDING

    Ms. Majette: I am concerned that the President's budget doesn't 
include enough funding for educators in my State to meet the needs of 
our children--I am specifically referring to meeting the requirements 
of No Child Left Behind. It costs money to provide tutoring and 
transportation and teacher training. The Republican State School 
Superintendent in Georgia, Kathy Cox, recently admitted that she was 
concerned Georgia's education budget would not be sufficient to meet 
the needs of our children. I am sure that you share my commitment to 
ensuring that all teachers have excellent training and that their 
expertise is translated into an excellent learning experience for our 
children. In your Departmental budget summary, you attempt to justify 
eliminating 38 programs as an effort to focus on NCLB. I cannot 
understand the logic of cutting the $1.4 billion currently spent on 
these education programs and replacing them with only $1 billion more 
in NCLB spending. Using the Department's formula, we would actually be 
spending less on elementary school children. How do you explain and 
justify that?
    Secretary Paige: It is true that we are proposing to eliminate 38 
categorical programs totaling $1.4 billion, primarily to consolidate 
this funding into larger, more flexible, easier-to-administer State 
grant programs. It is not true, however, that we are proposing to spend 
less on No Child Left Behind, or less on elementary school children.
    The President's budget would provide $24.8 billion for No Child 
Left Behind, an increase of nearly $463 million over the 2004 level. If 
you include funds for Special Education and other programs, total 
spending on elementary and secondary education would grow to $38.7 
billion, an increase of $1.1 billion over the 2004 appropriation for 
these programs. These totals include $179 million in one-time 
congressional earmarks for specific projects, added as part of the 2004 
appropriation. Without the one-time earmarks in 2004, the increase for 
elementary and secondary authorized programs is actually $1.3 billion 
over the 2004 appropriation.

 NATIONAL SCIENCE FOUNDATION AND DEPARTMENT OF EDUCATION--MATHEMATICS 
                   AND SCIENCE PARTNERSHIPS PROGRAMS

    Ms. Majette: Mr. Secretary, improving math and science education in 
our public schools is critical. The House of Representatives recognized 
this need when we voted 417 to 7 to increase loan forgiveness for 
highly qualified math and science teachers. Unfortunately, the 
President's budget doesn't sufficiently recognize this need. Instead, 
there is a shell game that only appears to increase math and science 
funding. While the Math and Science Partnerships within your Department 
would increase by $120 million, you propose phasing out the program by 
the same name within the National Science Foundation, which was funded 
at $134 million dollars. Therefore, this budget actually proposes a 
decrease in Math and Science Partnerships.
    In addition, while these programs share the same name, they are not 
identical. The Department of Education's Math and Science Partnerships 
provide grants to local schools, often in the neediest districts, to 
implement new and improved math and science curriculum. The program by 
the same name within the National Science Foundation provides peer-
reviewed grants to create innovative new methods of teaching these 
subjects. These programs are not duplicative, but instead are highly 
complementary. Mr. Secretary, in this era of accountability, please 
explain the President's decision to eliminate the peer reviewed program 
within NSF that helps develop the tools that your Department implements 
nationally.
    Secretary Paige: The Administration believes that it is now time to 
apply research findings in the classroom and that the Department of 
Education, which works extensively with States and school districts, is 
well prepared to assume that responsibility. Thus, for fiscal year 
2005, the Administration is requesting $269.1 million for the 
Department of Education's Mathematics and Science Partnerships program, 
a $120 million (80.5 percent) increase over 2004. Of this amount, 
$149.1 million would be awarded to States by formula to continue State 
subgrants initiated in fiscal years 2003 and 2004, and the entire 
proposed increase of $120 million would support a new program of direct 
Federal competitive grants to partnerships to increase learning in 
mathematics for secondary students.
    The new 3-year competitive grants are part of President Bush's Jobs 
for the 21st Century initiative, which reflects the President's 
understanding of the challenges faced by young people in preparing for 
future careers, and his determination to help them get the skills and 
training they need to compete successfully in today's changing economy. 
These grants would support projects that have significant potential to 
accelerate the mathematics learning of all secondary students, but 
especially low-achieving students, and would focus on ensuring that 
States and LEAs implement federally supported professional development 
projects for mathematics teachers that are strongly grounded in 
research and that help mathematics teachers to become highly qualified.

   NET BUDGET INCREASE FOR FEDERALLY FUNDED MATHEMATICS AND SCIENCE 
                         PARTNERSHIPS PROGRAMS

    The increase for the Department's portion of the program would 
represent a net increase overall for the two Mathematics and Science 
Partnerships programs of $61 million for fiscal year 2005. This 
initiative would absorb funding for similar teacher training activities 
for mathematics teachers currently provided by the National Science 
Foundation (NSF). In fiscal year 2005, the Administration is requesting 
$80 million for NSF's Mathematics and Science Partnerships program, 
approximately $59 million less than the fiscal year 2004 appropriation. 
This decrease would begin the process of phasing out the NSF program, 
while continuing support for out-year commitments for awards made in 
the first and second grants competitions, data collection, and program 
evaluation.

    Mr. Hastings. I want to remind members that we have another 
panel coming, so I would invite you to stick around for that.
    I was just advised that our colleague from California, Mr. 
Miller, will not be here, so I would like to call the next 
witness if she is here, Lisa Graham Keegan, to please come 
forward.
    Mr. Spratt. Mr. Chairman, while she is coming, I would like 
to request unanimous consent that the statement and testimony 
that Mr. Miller would have given be entered in the record.
    Mr. Hastings. Without objection, so ordered.
    [The prepared statement of Mr. Miller follows:]

 Prepared Statement of Hon. George Miller, a Represetative in Congress 
                      From the State of California

    Good morning, Chairman Nussle, Ranking Member Spratt, thank you for 
the opportunity to testify on the Bush administration's fiscal year 
2005 Education budget. This is the forth budget sent to Congress by the 
Bush administration. Like the three Bush budgets that preceded it, this 
budget demonstrates that this administration does not view education as 
a priority.
    If this Bush budget were enacted into law, it would amount to the 
smallest increase in education funding in 9 years. In addition, it 
eliminates 38 education programs, reducing the Federal investment in 
education by $1.4 billion. We need to invest in our education system--
to close the achievement gap, and to ensure access to a college 
education for all eligible students. President Bush's budget fails on 
both accounts.
    The Bush budget continues to renege on the commitment to fully fund 
the No Child Left Behind Act. This year the Bush budget underfunds the 
No Child Left Behind Act by $9.4 billion. As part of this shortfall, 
the Bush budget underfunds the 21st Century Community Learning Centers 
program by $1 billion, eliminating afterschool programs for over 1.3 
million children. The Title I program is underfunded by $7.2 billion. 
The Bush budget leaves nearly 5 million disadvantaged children without 
extra academic help and services. Cumulatively, President Bush and the 
Republican Congress have underfunded NCLB by $27 billion since its 
enactment.
    NCLB placed new challenges on our schools and teachers--challenges 
it is important that our educators meet: eliminating the achievement 
gap between poor and minority students and other students; improving 
accountability; upgrading teacher quality. Our communities are working 
hard to live up to their end of the bargain. When are the Bush 
administration and Congress going to live up to theirs?
    Instead, we have radical, unjustified and unnecessary cuts in 
proven, effective education programs. Among these programs are 
initiatives to reduce alcohol use by teenagers, to ensure elementary 
school children have enough counselors, to reduce the number of 
students who drop out of school, and to provide family literacy 
programs to allow parents to be a greater part of their child's 
education.
    Lets take one example: Even Start's support of family literacy 
programs. These initiatives have long enjoyed bipartisan support. 
Secretary of Homeland Security, Tom Ridge, when he was the Governor of 
Pennsylvania, called family literacy ``a dramatic investment'' in the 
future of young Americans that will allow ``parents and children [to] 
learn and succeed together.''
    Similarly, First Lady Laura Bush has expressed her support for 
family literacy programs, saying: ``Family literacy programs * * * work 
on the front lines of the battle against illiteracy.''
    But the Bush budget would eliminate family literacy programs across 
the nation.
    Equally alarming is the lack of investment in our higher education 
programs. President Bush's budget fails to make college more affordable 
because it fails to address rising college costs, the declining buying 
power of college grants, or the rising debt carried by college 
students. As parents and students alike watch the cost of attending 
college rise by historic levels, the Bush administration provides no 
relief and no support.
    Instead, President Bush once again has proposed freezing the size 
of the maximum Pell grant.
    The Bush administration has thrown around rhetoric that they have 
increased funding in this program by billions. Its just that--rhetoric. 
The fiscal year 2005 Bush budget marks the third year in a row that the 
maximum Pell grant would remain at $4,050.
    This freeze comes at a time when rapidly rising college costs have 
negatively impacted the ability of low and middle-income students to go 
to college. In fact, the National Center for Public Policy and Higher 
Education has estimated that 250,000 students were shut out of college 
opportunities this school year due to rising college costs.
    President Bush has yet to make good on his 2000 campaign promise to 
make college more affordable by increasing the maximum Pell grant for 
college freshman to $5,100, even though the grant is now worth $500 
less than the maximum grant in 1975-76, adjusted for inflation, nearly 
30 years ago!
    The Bush budget also forces a tax on college loans that would 
charge students an additional $4 billion over the next 10 years by 
requiring lenders to collect a 1 percent insurance fee when students 
take out their college loans. Currently, lenders have the option not to 
charge students this fee.
    The Bush budget also cuts $316 million of vocational education 
funding--again. Federal vocational education programs have strong 
bipartisan support, as demonstrated by congressional rejection of past 
efforts by the Bush administration to cut these programs. President 
Bush has proposed a new job training initiative for community colleges 
in his Labor Department Budget. This proposal masks the real record of 
Bush administration support for community colleges.
    Since President Bush took office, he has proposed over $1.8 billion 
in cuts to vocational education and job training programs for community 
colleges. These cuts would have had devastating effects, denying 
training and educational opportunities to thousands of students.
    The Bush budget does propose yet another $1-billion increase for 
special education, as in prior years. However, at this rate of 
increase, we will never reach IDEA full funding, which we promised the 
nation's school districts over 28 years ago. The Bush administration 
dismisses the bipartisan support for reaching full funding, as 
illustrated in the letter being circulated by Congressman Bass and 
other Republican Members in support of a $2.5 billion increase in IDEA 
funding in fiscal year 2005.
    Lastly, I want to express my disappointment that Secretary Paige's 
Department of Education continues to use Enron accounting procedures to 
distort the real record on education funding. Secretary Paige responds 
to charges about underfunding of education programs by asserting that 
states have over $5.7 billion in unspent funds from the past 3 fiscal 
years. He also claims that states have enough funding to comply with No 
Child Left Behind and IDEA. These claims are nothing but smoke and 
mirrors.
    As the Secretary knows full well, the Department is counting as 
unexpended funds billions of dollars in resources that the states have 
already designated for renovation of schools, teacher salaries and the 
purchase of testing system and curriculum. In fact, the administration 
has provided us documentation that States are expending their funds at 
a rate faster than expected by the Department.
    Very simply, these funds aren't ``unspent,'' and the Secretary 
knows it. Go to your school board members, schools and teachers. Ask 
them if they have the resources they need. Ask them if they have enough 
funding to meet the requirements of the No Child Left Behind Act, or 
IDEA. You will get a dose of reality. With State budgets continuing to 
be slashed, you will find the need even greater than past years.
    Mr. Chairman, this committee is faced with an issue of priorities. 
We cannot continue to ignore the funding needs of our K-12 and 
postsecondary education systems. This budget submitted by the Bush 
administration prioritizes tax cuts for the wealthy over education 
funding for the disadvantaged for the third year in a row. It is not 
enough to proclaim yourself the ``education President.'' You need to 
provide leadership and make the decisions that strengthen our schools, 
eliminate the achievement gap, and make college affordable to all.
    The administration's Budget fails our students, our teachers, our 
schools, and our communities. They look to us for support, and they get 
smoke and mirror budgets and photo ops in classrooms. We must do better 
for our children and our future.

    Mr. Hastings. Ms. Keegan, if you are ready, we are ready. 
We would like to welcome you to the Budget Committee as we 
pursue trying to build a blueprint for spending of Federal 
dollars in a variety of areas. We are working on the education 
budget today or at least having a hearing on that. We welcome 
you and you are recognized.

STATEMENT OF LISA GRAHAM KEEGAN, CEO, EDUCATION LEADERS COUNCIL

    Ms. Keegan. Mr. Chairman, thank you very much. I appreciate 
the opportunity to share some information with you.
    I represent the Education Leaders Council which is an 
organization of State policymakers in education who have 
supported the tenets behind No Child Left Behind and in fact, 
have enacted them in their States long before the Congress 
restated the importance of this endeavor.
    Secretary Paige said in his comments that he thought No 
Child Left Behind was just a logical follow on to Brown v. the 
Board of Education. We feel the same way. We feel it is a civil 
right of students to be able to expect that the expectation of 
them will be equally as high regardless of where they are going 
to school.
    We think unfortunately it can be demonstrated that is not 
the case in American schools right now and that the best remedy 
for that is to know where all students are, to have a great 
picture that the public can use about their performance against 
the standards that a State sets for their children, and given 
that information, we can take action but we can't take action 
without it.
    I think what makes me most nervous is listening to talk 
that says this is just an overreach, this is just something 
that is a Federal mandate. If not this answer, what answer for 
a situation where we can predict in American schools who will 
fail by race and by wealth? It has to be a national answer. 
Unfortunately this looks remarkably the same in every State as 
far as which students are making it and which students are not.
    When the Congress got behind No Child Left Behind and 
passed in a bipartisan way the tenets, we were delighted 
because it backed up the work in the States that was ongoing 
for which there was a great deal of pushback as members know. 
We thought at the Council it would be incredibly valuable for 
the Congress to know exactly what the hard costs in the States 
of implementing No Child Left Behind are. There has been much 
discussion today about authorizations and appropriations, and 
so forth, and it seems to us the questions are fairly clear. 
What costs did No Child Left Behind as a new law bring to the 
States and how much money was appropriated? We delivered to 
your offices yesterday the result of that question we asked 
called, ``No Child Left Behind Under A Microscope.'' That study 
determines conclusively that there is more money given to 
States each year than is necessary for the implementation of 
all of the new requirements under No Child Left Behind by a 
figure that increases annually.
    I would refer you to the report itself to take a look at it 
and we would be happy to be contacted specifically about 
questions and so forth but let me just give some actual 
numbers. No Child Left Behind asks for specific action in four 
areas: accountability, meaning adequate yearly progress; 
assessing students in every grade, every year--a new cost 
because States up to that time had merely been required after 
the 1994 Act to test in a couple of different grades. In 2000, 
it was every child every year and there is an additional cost 
for assessment.
    The second issue was personnel. This is where rightfully 
most of the money is dedicated by the Congress. The actual 
costs for personnel are about $1.1 billion, they were in 2002 
and 2003 years. They were about $2.5 billion in 2003 and 2004. 
They are projected to be at about $4 billion in 2005.
    The actual appropriations for those, if you look at the 
study, exceed the total amounts. If you add the accountability 
and personnel, and in addition to that, the data system that 
has to give you information about the data that is collected 
and then school improvement, all of those things together 
create actual costs that are met by the appropriations in No 
Child Left Behind and then there is a surplus of about $1.5 
billion that can be used and is mentioned in regulation for 
general school improvements in whichever way the State feels 
that it needs.
    We believe it is so important to talk about actual costs 
and what is actually being required in No Child Left Behind 
because if we don't do that, we allow a very vague notion that 
somehow there is a Federal mandate being enacted upon States 
that never existed before and it is costing more money than we 
are being given. That is clearly not true.
    It is also true in a bigger sense that this was our work to 
begin with, that we believe it is our work that all students 
are taught in such a way that they meet the standards of the 
State. That ought not be a new requirement. It has merely been 
restated in No Child Left Behind. In fact, in 1994, when the 
ESEA was reauthorized, all States were required to list all of 
the schools in their State that were failing by their 
assessment measures. Most of them did not do that. In my office 
we call, ``No Child Left Behind, No Child Left Behind, No, 
Really'' because it had been said in 1994.
    I would have the privilege of being the State Chief in 
Arizona in 1995 and we struggled to get those numbers out. It 
was very important. We showed up with one-third of our schools 
where we could tell there were children, at least groups of 
children, that were failing, even failing in a school that 
looked like it was making tremendous progress.
    Secretary Paige refers often, and is a great inspiration to 
everybody who is working behind him on this, to the Civil 
Rights Act. When the Nation decided that unfortunately in order 
to offer everybody opportunities, we had to write that down and 
get it right for all citizens of the country, nobody suggested 
a percentage. How about 70 percent, we give rights to 70 
percent. It wouldn't even have been thought of. Nor should it 
be the case in American schools that what we do is simply say, 
give us an average of who is getting an equal opportunity and 
we will go with 60, 70. The point is all children.
    It is difficult work, it is expensive work. It is work that 
has required the huge increases of funding that the Congress 
has made and they have been larger than anything the States 
have seen for quite some time. I believe--I know that there is 
a difference sense in the country. This has made a difference. 
It is worth the investment that is being made and the 
investment that is being made is sufficient to meet the cost.
    Mr. Chairman, I would be happy to answer any questions.
    [The prepared statement of Ms. Keegan follows:]

  Prepared Statement of Lisa Graham Keegan, Chief Executive Officer, 
                       Education Leaders Council

    Good morning, Chairman Nussle and members of the committee. It is 
my pleasure to appear before you today to discuss President Bush's 2005 
Budget Request for the Department of Education. My name is Lisa Graham 
Keegan, and I am CEO of Education Leaders Council, a member-based 
organization of education reformers, and the only organization that is 
presently leading an in-the-classroom effort to implement the policies 
of No Child Left behind (NCLB).
    We believe very strongly in NCLB--but then, our members have been 
supporters of its policies since long before the bill was even in its 
earliest drafting stage. The policies embodied in NCLB have been the 
policies of our members--from school board members to state chiefs to 
Governors--for nearly a decade. As members of this committee, you've 
likely heard warnings that the policies of NCLB are underfunded--or 
worse, to those of us with a federalist bent, an ``unfunded mandate.'' 
As an organization of practicing educators who have actually been 
putting the policies on NCLB into place for years, we at ELC believe we 
can give you a unique, credible perspective on how much money it really 
takes to turn the ideals embodied by the law into active practice. I 
think our answer will surprise you.
    I was also so pleased to have the opportunity to hear Secretary 
Paige's comments, because I think he's got it exactly right. NCLB is 
more than a program--it's a right. And I do not think it is an 
overstatement to say that NCLB is the heir to Brown v. Board of 
Education, as the Secretary has often said. NCLB is providing students 
in the United States with a new civil right--the right to an 
educational system that makes the same academic demands--and provides 
the same academic opportunities--for all students, regardless of their 
race or socioeconomic status. It does not allow for one set of 
standards for one set of children, and a different set of standards for 
another.
    Really, much of what is in NCLB isn't that new at all--you did much 
of it in 1994 with the Improving America's Schools Act (IASA). Though 
the term AYP was still about 6 years off, IASA was very similar to 
NCLB, in that it asked states to ensure that all students were all 
making academic progress. But the 1994 act lacked the sunlight and 
teeth that you have put into NCLB. You gave the states some very real 
goals to meet. They can't claim academic progress based on averages--
they have to look at all children. They must report data. They must 
ensure teachers are adequately trained. They must make sure parents 
know how their children are doing.
    What does all this have to do with the job of this committee? I 
want you to put the budget numbers before you in perspective of what it 
is you're trying to do with the money you're allocating. The Civil 
Rights Act became law in 1964. We don't hear people complaining that 
it's an unfunded mandate, and therefore we can only give equal rights 
to 70 percent of the people because the government isn't adequately 
funding this ``mandate.'' Nor do we hear people argue that the 
government is meddling in the affairs of states by insisting that 
anyone--regardless of race or color--be allowed to vote or ride at the 
front of a bus. The same is true of NCLB. You have no reason to 
apologize for insisting that all children--not just some--receive a 
quality education. It's their right.
    But then, what of the claim of ``unfunded mandate?'' ELC, in 
conjunction with AccountabilityWorks, recently completed a study of 
those claims and found them to be without base. Specifically, we 
examined what NCLB requires states to do--things that weren't already 
in the 1994 law--and looked at how much these new activities cost and 
whether the resources had been appropriated to meet these new costs. 
What we learned may astonish you. Not only has the Congress provided 
the states with sufficient resources, but, in fact, you may also have 
provided them with more than enough.
    For our study, we looked at the four new activities specifically 
required by NCLB: the costs of new accountability requirements, 
including new testing requirements; the costs of meeting the 
requirement for ``highly qualified'' teachers; the costs associated 
with information management, such as those needed to disaggregate 
student data; and the costs associated with school improvement, such as 
school improvement plans and choice initiatives. For these activities, 
we looked at what we called the ``hard costs''--those that have a 
necessary fiscal impact on states and local education agencies--
associated with each of these new requirements.
    For all activities, we found existing funding to be sufficient and, 
in many cases, there was still plenty of money left over--anywhere from 
$785 million anticipated in the 2004-05 school year to approximately $5 
billion in the 2007-08 school year. These remaining funds are then 
available to states for general school improvement--offering the 
flexibility that some detractors have said the law does not provide.
    We also thought it might be helpful if we reviewed a number of 
other cost studies of NCLB that many of you have received and which 
have concluded that NCLB is ``underfunded.'' We looked carefully at 
studies by the New Hampshire School Administrators, the Democratic 
Congressional Study, the General Accounting Office, and other state 
studies of ``educational adequacy.'' In each case, we noted flaws or 
limitations that led to questionable conclusions. Some, for example, 
had relied on costly assumptions rather than more innovative 
approaches. Others had lumped in costs not associated with specific 
requirements under NCLB in determining the costs of compliance. In our 
cost study, we describe the flawed methodology or assumptions that have 
led to questionable conclusions.
    What do I hope you and your committee will take away from this cost 
study, Mr. Chairman? If anything, it's the realization that the 
``unfunded mandate'' argument is a straw man--a specter invoked by the 
status quo in hopes of frightening you into questioning your own 
commitment to not only the funding, but also the philosophy, of NCLB.
    Don't be fooled, Mr. Chairman--the Congress and the administration 
have backed up their promises. Sufficient resources have been provided 
for states to implement the policies you've enacted. Funding is not the 
sole obstacle standing in the way of providing all students with the 
right to a quality education. The issues that plague education reform 
lie beyond dollar for dollar comparisons to larger questions about what 
works best for students--not the system. As a nation, we need to 
dismiss our allegiance to antiquated systems, welcoming new ideas and 
initiatives based on proven results for students. NCLB offers the right 
incentive and we can wait no longer to capitalize on its improvements.
    Thank you for the opportunity to address the committee. I look 
forward to responding to any questions you may have.

    Mr. Hastings. Ms. Keegan, thank you very much for your 
testimony.
    I have spent a great deal of my time since No Child Is Left 
Behind, particularly in the last 6 months, traveling around to 
school districts in my district and my district in Washington 
State is essentially a rural district, and in some cases, is a 
heavily minority population, a Hispanic population. One thing I 
hear from those administrators and teachers, I try to meet with 
all of them together, is a bit of frustration coming from the 
testing aspect. What I point out to them is in our State we 
have had a State test prior to No Child Left Behind. If there 
is an issue with the testing, the issue is with the State 
legislature. The Department here has adopted or allowed 
Washington State to adopt that as testing and they acknowledge 
that. So they are working with the Superintendent of Public 
Instruction on some of those tests. I think the legislature 
this year has made some modifications to bring it up to date.
    One other train of thought goes through those discussions I 
have had with those educators and that is that it has raised 
the level of accountability, not in a negative way but in fact 
everybody should work a bit harder, be a bit more focused 
because truly no child should be left behind.
    I suppose as with any new program, you are going to have 
those fits and starts and there will be some glitches. We will 
acknowledge those things and will probably have to address 
them. It wasn't brought out but I was talking to Secretary 
Paige beforehand and he said they are working on some 
regulations to maybe modify some of the things. I think that is 
a normal reaction when you pass something as sweeping as what 
we did with No Child Left Behind.
    I appreciate your testimony. There is I guess just a little 
wariness, mainly because K-12 education has historically been 
the responsibility of the States and now all of a sudden the 
accountability aspect is coming from the Federal Government. I 
remember one school district that is heavily a minority. They 
said, we had this goal way beforehand that no child should be 
left behind, this just raised the issue. So I was very pleased 
to have heard that.
    If you would like to comment on anything I have said, that 
is fine.
    Ms. Keegan. If I may, Mr. Chairman, just to reiterate in 
our work with the U.S. Department, they have been incredibly 
flexible with States and have taken the State program. It is 
sort of a little repeated fact that standards are set by the 
States, the testing program is determined by the State, the 
pass rate is determined by the State. The State merely has an 
obligation to disclose all categories. I think we have all 
learned a lot.
    As data has come out, we are getting two sets of data, one 
according to Federal regulations sometimes and one according to 
the State. Our feeling is fine, just let that information come 
and at that point we will be able to sort it but without the 
information, we don't know where these children are. So it is 
awkward in the first years. There is no question. It does put a 
great deal of stress on teachers and in schools. We do work on 
about 400 schools specifically on this issue of implementing No 
Child Left Behind. Those schools are trying very hard. It is a 
change in culture but it is the right one, but it will be 
difficult.
    Mr. Hastings. Thank you very much.
    Mr. Spratt.
    Mr. Spratt. I was interested in the group you represent. I 
can't tell from the title if your organization if individual 
school districts or State superintendents of Education. Who are 
your constituents?
    Ms. Keegan. Our original organization was State Schools 
Chiefs and State Board Members. We also have people who are 
just interested generally in reform and we serve State board 
members, Governors offices, anybody who is interested in reform 
who contacts us, we work with them.
    Mr. Spratt. The reason I am asking is that all of my school 
districts, and I have some very earnest, able educators in my 
district struggling mightily to make the educational system 
work and to make public education achieve its promise. All of 
them feel this whole No Child Left Behind program has been, as 
I said earlier, a gigantic bait and switch. They have been 
lured into it and many of them supported it because they are 
for accountability, they believe they need to be challenged to 
higher levels of achievement, but at the same time it was 
represented to them that they could work with these standards 
and two, there would be additional funding and the 
authorization levels of the bill that was signed with such a 
claim certainly would give one grounds for believing that more 
money was coming in return for more accountability.
    I am just curious as to why your constituents don't 
apparently feel the same way.
    Ms. Keegan. There is a letter I would be happy to deliver 
to you from a number of superintendents around the country that 
was put out by the education trust, mostly minority 
superintendents saying that No Child Left Behind needed to be 
in place, that it was the right thing, that yes, it was 
difficult work but they thought it was the right work.
    Mr. Spratt. I understand. My superintendents say the same 
thing but they also believe they were promised funding adequate 
to the new task and obligations imposed upon them.
    Ms. Keegan. I would love to try to help whoever contacted 
you or through us and ask them what the actual expenditure they 
are trying to make is and why the cost is exceeding the money 
that is available to them. We have done some of that work and 
would be happy to answer that question.
    Mr. Spratt. OK.
    Mr. Hastings. Mr. Wicker.
    Mr. Wicker. Thank you very much, Mr. Chairman. Thank you 
for your testimony, Ms. Keegan.
    Let me see if we can follow up on some of the things the 
Secretary said earlier in his testimony. I asked these 
questions today in response to a meeting I had with one of my 
school superintendents just yesterday about the No Child Left 
Behind Act.
    The Secretary says the act is positive, it is not negative 
in terms of the report card that is required, that there is 
nothing in the report card about failing schools and yet, while 
acknowledging that, a superintendent that I spoke to yesterday 
said that it comes across in the newspaper as schools that have 
failed. I just wondered if you have a solution for us at the 
legislative level to that because I think in terms of the 
semantics, the Secretary is right and also the superintendents 
are right. When the message gets to the public, they hear that 
the school has failed when it may have passed with flying 
colors in many areas and only has room for specified 
improvement in a few areas. Could you comment on that?
    Ms. Keegan. I think you are right, that they are both 
right. It is difficult. How do you say well, the school 
succeeded but a portion of its students failed to make adequate 
yearly progress? Those two things can no longer sort of exist. 
What we have determined is that if groups of children are 
routinely failing in a school to make progress, they are 
failing to meet standards, then the school itself is determined 
to be in need of improvement. I believe that information by 
itself incentivizes people to action. I don't know how you get 
people to change their behavior without pointing out that the 
behavior they have been engaging in is not sufficient. You 
don't do that by congratulating somebody for it, so it is 
difficult. There is no question. Were there not that sort of 
public scrutiny, I don't think you could expect much change.
    Mr. Wicker. So we will await a formal suggestion perhaps 
from your organization is you do have a suggestion about how we 
might address that legislatively. Perhaps there is no way to do 
it. I think you have certainly made a correct statement.
    Another thing the superintendent told me yesterday was that 
he was still very much interested in meeting the challenges of 
Goals 2000, the first of which was that every child would 
report to the first grade ready to learn and that we have not 
gotten anywhere near that goal here in the year 2004.
    What does No Child Left Behind as an act say about that 
concept, whether we call it something else or not? What sort of 
job do you think we are doing nationally in making sure that 
every child reports to school ready to learn?
    Ms. Keegan. No Child Left Behind is geared, as you know, 
basically between grades three and eight. The larger act and 
other acts like the Head Start Program and so forth where we 
have begun to focus quite mightily on academic preparedness 
rather than some of the less academic pursuits that were going 
on in pre-school. I should say less academic preparation.
    Mr. Wicker. You are not saying, and I hate to interrupt but 
we are limited, that there was an abandonment though of that 
concept of getting to school ready to learn when we passed No 
Child Left Behind?
    Ms. Keegan. No, sir, not in the least. I believe the Head 
Start and the pre-school programs have been strengthened right 
along at the same time. What I was trying to say is that there 
has been an insistence now that those programs focus themselves 
on school readiness rather than just play or child care. That 
has happened at the same time and those investments have been 
made. I think those are appropriate.
    Mr. Wicker. How are we doing?
    Ms. Keegan. I would say it is harder to tell because we 
don't routinely test children as they come into school and we 
don't have that kind of data. I will tell you my biggest 
concern remains that in third grade the kids are looking fairly 
strong and they begin to drop off. So we can do as well as we 
want in pre-school but if we lose the kids between the third 
and the fifth grade and they start to go south, what you did to 
get them ready in pre-school will not matter. We have to 
continue to challenge them through the middle school years as 
well, middle school being our biggest academic dropoff in the 
country.
    Mr. Wicker. I would be very interested, Mr. Chairman, in 
receiving some information in writing from the witness as to 
any correlation between those who begin to drop off after the 
third grade and what sort of kindergarten and pre-kindergarten 
education those students have had.
    Ms. Keegan. The studies have been done. I will do that.
    Mr. Wicker. Thank you. Thank you for indulging me, Mr. 
Chairman.
    Mr. Hastings. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Keegan, I would like to see those studies too. I think 
that is a very critical area.
    We heard questions earlier on Pell grants. Have studies 
been done about whether or not a student from a low income 
family can reasonably be expected to attend college 
particularly a private college at this time, questions on 
affordability? I have seen studies that say half the low income 
students qualified to go to college can't go because they can't 
afford it.
    Ms. Keegan. I would have to look for that number since we 
deal primarily at K-12 but those are certainly available. I 
would be happy to get them to you.
    Mr. Scott. When we did No Child Left Behind, part of the 
challenge with annual, yearly progress was to deal with 
dropouts because if people drop out, they are presumably toward 
the bottom of the scale and would have the perverse effect of 
increasing your average if you had a high dropout rate. If you 
had a dropout prevention program keeping those students in 
school, it would make your average look worse.
    Can you tell me what your studies have shown about how we 
incorporate the dropout rate and avoid that kind of perverse 
incentive?
    Ms. Keegan. I can tell you that I know more about this 
personally than we as an organization just because we haven't 
undertaken it. I think one of the most difficult things to deal 
with is that State funding systems ordinarily fund students 
through only a particular day, so they may have 180 academic 
days but they will stop funding after an account is made on the 
100th day. That combined with high stakes assessment can in 
fact be a fairly lethal combination for somebody who is 
potentially going to drop out. It is an unfortunate fact that 
in many States you can count the huge increase in dropout 
programs that happens on about the 110th day meaning that the 
schools have allowed some kids to go ahead and drop out or 
suddenly encouraged them to drop out after they have been paid 
for the child that year. Those are simply, unfortunately facts 
of State school finance systems. I believe those incentives 
ought to be turned around. They could only be turned around by 
the State, however.
    Mr. Scott. Have you reviewed the budget in terms of 
juvenile delinquency prevention programs?
    Ms. Keegan. I have not taken a review of that.
    Mr. Scott. We know it is important, as you have indicated, 
that children who cannot read by the third grade are on track 
to disaster. Have you reviewed the budget to determine what we 
have done to guarantee that children can read by the third 
grade?
    Ms. Keegan. The Congress, as part of No Child Left Behind 
and in the reading acts that have been such a strong part of 
that, I think are making every possible emphasis on reading for 
children. Most States have an initiative going on reading, many 
of them have those initiatives going prior to No Child Left 
Behind, has merely been strengthened and further investments 
made in those programs.
    Mr. Scott. It is my understanding that some reading 
programs have been increased but family literacy programs have 
been decreased almost in identical amount so that the overall 
focus on reading for early childhood is a net wash. Are you 
familiar with the budget numbers?
    Ms. Keegan. Not with that number. My understanding for 
reading first is that the numbers have continued to increase 
but I will go back and check them.
    Mr. Scott. Without getting into numbers, I think I 
understand your testimony to be that it is extremely important 
that we focus on children's ability to read by the third grade?
    Ms. Keegan. Yes, sir.
    Mr. Scott. Has there been enough research to let people 
know how to educate children, particularly in urban areas? 
Urban areas and some rural areas have a very poor outcome. 
Comments have been made about the Washington, DC area. Has 
enough research been done so that we would know what 
methodologies work better than others or is more research 
needed?
    Ms. Keegan. I believe we know and I believe more research 
is always needed. We are in the business of educating kids and 
there are new technologies available all the time but I believe 
we know that one must have solid standards you are reaching 
for, a direct and explicit instruction to children, a 
diagnostic about how those children do, where they started, 
where they went after you taught them, then an intervention 
again and you complete that cycle over and over again. I think 
we do know and there have been studies repeatedly that have 
said with those specific activities, children will learn. It 
gets easier with a lot of the technology that is out there to 
do that. Unfortunately in many instances, we simply haven't 
done it.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you very much.
    Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you for being here, Ms. Keegan.
    I was attending a budget meeting and that is why I wasn't 
here to ask the questions and perhaps come up with some of the 
answers that Mr. Spratt was seeking.
    I am an educator. I teach college and I have so many 
students in college who are so incredibly behind on writing and 
critical thinking skills that it is pathetic. I have never 
believed that poverty was a reason for children not to learn. 
That is why initially I was very excited about the No Child 
Left Behind Act.
    I recently picked up a newspaper on a Sunday, February 8 
and it says, ``Quality of No Child Left Behind programs in 
question.'' Let me just read a couple of things. ``At a tae 
kwan do center in Morris County, eight children were bussed 
from Patterson. They practice martial arts, make pudding and 
play a game of telephone whisper down the line. Taxpayers are 
funding all of this. There is an untrained college student 
being paid $25 a hour. The Tae Kwan Do center gets $1,500 per 
Saturday session it runs. There is another program there that 
the instructor, a Karen Helmster, abandoned her tutoring plans. 
She said she substituted ``more of an enrichment program 
exposing children to new topics to broaden their general 
knowledge.'' Her lesson plan is based on teaching about the 
human body and the senses. Did the children come in knowing 
their body systems? No, she said. That is how we are going to 
judge the success of this program.''
    Mr. Spratt, I think we have found where the problem is and 
it is that many States have approved programs that really do 
not improve reading or writing skills of students. How do we 
correct things like this? I think the taxpayers do want to have 
adequate funding for No Child Left Behind but if we are wasting 
funding on programs like this that States approve, no wonder 
there is concern out there.
    Ms. Keegan. If that is what is going on, if that is 
correctly depicted in the paper, then clearly that is nobody's 
intention and I don't believe had anything to do with what No 
Child Left Behind was intended to do. However, one of the 
pieces of No Child Left Behind does add supplemental services. 
I have been in organizations that have done phenomenal work in 
calling families to let them know, your child is eligible for 
free tutoring, calling those families when a child doesn't show 
up for their reading and math instruction in the afternoon, the 
huge phone banks of people working every afternoon to track 
down these kids and make sure they are in their afterschool 
program and their scores are going through the roof. That is 
why I believe you got behind No Child Left Behind and funded 
things like supplemental services and other things and when 
money goes into programs like that, not only does it hurt the 
kids because I dare say they don't probably need whatever is 
going on there, it hurts the credibility of kids who are not in 
that program that are in programs where they are receiving 
fabulous instruction in reading and mathematics.
    Ms. Brown-Waite. I couldn't agree with you more but how do 
we address this issue so that the funding really goes for 
education? I don't think No Child Left Behind means let us 
study your behind and other parts of your body.
    Ms. Keegan. That is difficult to answer. I am quite sure 
that is not what it meant. I believe that the requirements for 
data and for information about the success of programs that you 
put in the law are ultimately going to call out that kind of 
thing and it won't be able to exist.
    Ms. Brown-Waite. Just one more response. Time obviously is 
of the essence when the child is there, so weeding out these 
kinds of programs are no other than wasting money and are not 
educational. It has to be done. This article happens to 
concentrate on New Jersey. I am not picking on New Jersey, I am 
originally a neighbor from New York, but if this is going on, 
then shame on us for letting it. That is the point I was trying 
to make.
    I would be happy to give a copy to the committee staff if 
they want it.
    Mr. Hastings. Without objection, that will be made a part 
of the record.
    [The article referred to follow:]

          Article Submitted for the Record by Ms. Brown-Waite

         Quality Of No-Child-Left-Behind Programs In Question,

  By Maia Davis, The [Bergen County, N.J.] Record, Sunday February 8, 
                                  2004

                 FEDERAL TAX DOLLARS PAYING FOR TUTORS

    HACKENSACK, N.J.--Five Passaic grade-school children stay after 
classes for special tutoring, but their instructor, a college 
sophomore, has not been trained as a teacher or a tutor. Busy helping 
three of the children with their math homework, he mostly ignores two 
others. At a tae kwon do center in Morris County, eight children who 
have been bused from Paterson, practice martial arts, make instant 
pudding and play a game of telephone, whispering a word down the line. 
This, too, is deemed tutoring. And in a third program, in Paterson, 
children in need of tutoring at one school are mixed in with others 
engaged in routine after-class activities.
    They get help with homework but little individualized academic 
guidance. Taxpayers are funding all of this. The untrained college 
student is being paid $25 an hour. The tae kwon do center gets $1,550 
per Saturday session it runs. The after-school program, which runs 7 
months, takes in $1,164 a child.

                      HELP FOR STRUGGLING SCHOOLS

    Because of the No Child Left Behind Act, thousands of schools 
across the
    country with sagging test scores are being forced to offer tutors. 
Hundreds of businesses are rushing to fill the need, from established, 
well-regarded firms to newcomers without track records. Because the law 
discourages states from weeding out unknown candidates, early evidence 
indicates Federal tax dollars are being thrown at dubious enterprises.
    Under No Child Left Behind, schools that underperform three 
consecutive years must use Federal funds to pay for private tutors. The 
tutoring is intended to provide individual or small-group instruction 
in math and literacy. Poor schools were first to land on the ``in need 
of improvement'' lists, based on test scores. But the law extends to 
all schools, and in coming years, publicly funded tutors are certain to 
turn up in New Jersey's suburban, middle-class schools as well.
    This year, warnings of subpar performance went out to hundreds of 
suburban schools, including traditionally high-ranked schools. Tutoring 
will be offered to low-income, academically struggling students at any 
school that receives Federal poverty funding, as most schools do. The 
intention is to give needy children the same opportunities enjoyed by 
wealthier classmates whose parents can afford private tutoring.

                          OVERWHELMING CHOICES

    But with so many schools certain to need tutors, the market is wide 
open. And the law, rather than regulating the field to create a small 
pool of proven, qualified tutoring businesses, encourages states to set 
standards that embrace a variety of private, nonprofit and faith-based 
providers. In addition, the law gives parents the right to choose their 
children's tutors, in much the same way that wealthier families can 
shop around. And it discourages teachers and principals from advising 
parents which programs they think are best.
    Christine Krenicki, an administrator in Passaic schools, said this 
is a bad idea. If local school officials could limit the number of 
programs offered to parents, she said, they could better monitor 
results. ``There are too many choices for parents,'' she said. The 
law's tutoring requirement ``was almost doomed to failure.''
    ``This is supposed to give parents some sovereignty,'' countered 
Thomas Corwin, an associate deputy undersecretary for education in 
Washington. ``These are parents who have kids enrolled in schools that 
haven't been making adequate progress. You don't just leave it to the 
district to make the decisions.''
    ``The parent is in the driver's seat,'' said Suzanne Ochse, who 
oversees federal poverty programs for the New Jersey Department of 
Education. With districts barred from steering parents toward specific 
tutors, parents have little to go on other than the list of approved 
programs seeking to serve their schools and, maybe, word of mouth.
    In Passaic, for example, where 700 children are eligible for 
tutoring, parents received a list of 33 vendors. Programs Fall Short 
One of them is Aspira New Jersey, a nonprofit social services agency 
that runs leadership development programs for Hispanic students and is 
venturing into tutoring.
    Most of Aspira's tutors are certified teachers trying to earn extra 
money, said Tiffany Gonzalez, an Aspira administrator. But at least one 
escaped basic
    scrutiny: Anthony Lora, the college student tutoring the children 
in Passaic's Schools, is only now in his second year of college and so 
lacks the minimal state qualification.
    Gonzalez said the agency coordinator who hired Lora ``didn't even 
realize he was a college student.'' But at least Lora shows up. He 
replaced an Aspira tutor who was frequently absent, Gonzalez said. 
Larry Chenault, owner of the tae kwon do academy, gained state approval 
for his tutoring program, Learner's Academy for Children, after 
promising it would teach arithmetic and language skills to struggling 
students.
    But when he learned how much he would be paid per student for the 
Paterson group, he calculated the $9,300 would cover only 6 weeks of 
instruction--even though other programs in Paterson and Passaic that 
receive the same per-student fee run from 10 weeks to an entire 
academic year.
    Realizing 6 weeks would not allow meaningful academic instruction--
especially considering the children's age span, from kindergarten to 
seventh grade--Karen Helmstetter abandoned her tutoring plans. She said 
she substituted ``more of an enrichment program,'' exposing children to 
new topics to broaden their general knowledge.
    Her lesson plan is based on teaching about the human body and the 
senses. ``Did the children come in knowing about their body systems? 
No,'' she said. ``That's how we're going to judge the success of the 
program.''
    Helmstetter said she sprinkles lessons in math and reading into the 
activities. Ruben Estrella boasts that he's learning division. Another 
newcomer to the Federal tutoring initiative is the Boys & Girls Club of 
Paterson. The club has long operated after-school programs that keep 
youngsters occupied as late as 8 p.m., a boon for working parents. It 
has 44 children enrolled in a 7-month tutoring program. About two dozen 
are bused to the club's center, where they are tutored through 
educational computer games supervised by a certified teacher. They also 
get homework assistance and time to play in the club's gym and game 
room.
    The remaining 20 students are spread among three public schools 
where the club runs regular after-school programs. All three offer 
homework help and recreation, and two of them provide the same 
computer-based instruction given at the center. But the third offers 
little tutoring.

                          CHILDREN LEFT BEHIND

    That's at School 27, where the three students enrolled in the 
tutoring program typically sit among dozens of classmates doing 
homework at long tables. They are not regularly separated from the 
other students for individualized instruction, and they are not 
supervised by a certified teacher.
    ``I'm not happy with it,'' said Peter Thornton, executive director 
of the club. ``We're going to fix it. We do a very good job at other 
places.''
    Thornton said the Boys & Girls Club's after-school program serves 
700 Paterson children daily and has a proven record of raising 
students'' grades. When the opportunity arose to offer formal tutoring 
through No Child Left Behind, he said, it made sense to expand.
    How Thornton's club improves instruction, whether groups such as 
Aspira properly train tutors or start-ups such as Chenault's Learner's 
Academy pass muster, and how the 100-odd other tutoring programs fare 
in coming years are matters for state oversight.
    ``The ultimate goal is student achievement,'' said Ochse, of the 
state Department of Education. ``We're just going to do what we can to 
make it work.''

    Mr. Hastings. Mr. Baird.
    Mr. Baird. I thank the Chairman.
    If I could call up a slide that Mr. Wicker showed earlier, 
I would appreciate it, the one that showed the change in 
reading scores with the change in Federal expenditures. I have 
talked with my good friend, Mr. Wicker, for whom I have great 
respect, but this particular slide I have to say I think is one 
of the most specious slides I have seen in a town that I have 
come to believe is known for specious slides.
    The reason is multiple but you have taken a developmental 
factor which is reading scores and admittedly, I couldn't agree 
more that just throwing money at a problem is not the metric we 
should measure our success by but if you plotted any other 
developmental measure, you would see its developmental curve 
fairly flat because no matter how much money we spend on a 
program, we are not going to make our kids taller, there are 
some limits to how fast they can run and there will be some 
limits to how well they can read.
    Yet, as our population increases and as inflation takes 
effect, you will see Federal spending inexorably increase. So 
that graph, if we spend $1 trillion, is going to stay somewhat 
flat. I have to say it troubles me when our topic is education 
that we are not using critical thinking skills and when our own 
Secretary of Education did not challenge the validity of the 
concepts presented in that graph, it is really troubling to me.
    Let me ask a separate question having gotten that off my 
chest. The question has to do with vocational education. I 
wonder if Ms. Keegan might offer us her insights into the 
importance of vocational education and if she is familiar? My 
understanding is the Association for Career and Technical 
Education and others have pointed out that in spite of the 
President's rhetoric about jobs and in spite of the fact we 
have lost three million jobs under his watch, that we are 
actually proposing to eliminate or certainly significantly cut 
back one of the more important vocational education programs in 
the Perkins Program. I wonder if our expert would be interested 
in discussing that?
    Ms. Keegan. The issue for students who will go directly 
into work from high school has to be that they have the skills 
they need to go into those jobs. The studies that have been 
done that have tried to link what students need to go directly 
into work if they are not going to have the ability to go on to 
post secondary instruction indicates they need a higher 
percentage of mathematics, they must have Algebra II, pre-
Trigonometry, they must have mathematics to a more significant 
degree in order to make a livable wage than students who are 
going to be able to do some more studying and unfortunately be 
able to remediate what they didn't learn in high school.
    I believe that the more compelling truth for kids who are 
in a position to go straight to work from high school is that 
they must have the foundational skills available to them. I 
happen to also be a huge supporter of vocational education and 
think those things can support and in fact strengthen the 
mathematics study but I do think oftentimes they were used in 
substitute and rather than the core curriculum and simply can't 
afford that or those children can't afford that anymore.
    Mr. Baird. So you see merit in cutting Perkins funding?
    Ms. Keegan. I see huge merit in making sure that all 
students have sufficient preparation in everything they will 
need to get a job, including mathematics, good writing skills, 
and so forth.
    Mr. Baird. Let me ask a different question. Maybe I 
misunderstand but as I look at the assessment of yearly 
progress, we assess our schools and we look at certain cells 
and say our kids in that cell are failing or that cell itself 
is failing to meet standards. If even one cell is failing, then 
the entire school can be classified a failing cell and then 
parents can take their kids out of that school and move them to 
another location if it is available.
    Let me propose an alternative. Suppose my child is in a 
special education program and my child is not reaching the 
level of reading desired by all kids in his or her age range, 
if they are in a failing cell then I would be able to take my 
child and move them to another school which has demonstrated 
success in that cell but the kids who are not in that cell 
cannot leave necessarily to another school because their cells 
may be doing just fine. Is there a problem with that logic? 
Frankly I haven't seen the charter schools and the voucher 
schools clamoring for special needs and multilingual kids.
    Ms. Keegan. The charter schools and any of the public 
voucher programs are required to take any kids who come. The 
issue you have suggested that perhaps only kids who are in a 
particular group of kids that are failing would be able to go 
to another school to me is a little bit tortured. The 
information is simply given to parents that the school is not 
making adequate progress, in fact has not done so for 3 years 
and you have a choice to go to another school.
    Mr. Baird. We are giving the parents a false impression. 
For all I know, my kid is in the calc class and is exceeding 
national standards but the parents are being told your school 
is failing. For those kids it may be succeeding greatly. Why 
not give more precise information and only allow the 
flexibility in the areas that are specified as not meeting 
standards?
    Ms. Keegan. You do have precise information, particularly 
if it is your child. You would know that your child was in 
calculus and making an ``A'' and doing fantastic. I think you 
would be happy with the school and wouldn't be prone to leave. 
I would give more information and more choices and it probably 
would work out fine.
    Mr. Baird. Would you suggest the people in those failing 
cells could only be able to transfer to schools or programs 
where they have demonstrated success and efficacy in meeting 
standards in those same cells?
    Ms. Keegan. So far as parents moving their kids into 
another school that is deemed to be failing, I find it 
difficult to believe they would do that but no, I wouldn't 
support simply saying you can only move into a cell where your 
child was failing. The designation is not sort of a sign to 
children. You would basically be blaming the lack of progress 
on a particular group of kids. You would have to call them out 
and say only these kids caused you to stay behind. I think that 
would not be a good way to handle that.
    Mr. Baird. I spent 23 years doing clinical psychology, I 
hold a doctorate in that and worked with some very, very 
severely disabled kids. To be perfectly honest, there are some 
kids who are just not going to meet standards. Does that mean 
the entire school is failing because those kids haven't met 
those standards and therefore, we should open the doors to that 
school and grade everybody as having failed because a subset of 
kids through unfortunate natural circumstances can't meet the 
standards?
    Ms. Keegan. No, I don't believe that and I don't believe 
that is what the adequate yearly progress provisions do. They 
say that a State gets to say what their standards are and what 
the performance standards will be, kids are tested according to 
the testing provisions for particular groups of kids. If a 
child is diagnosed with a significant disability, they are 
tested according to that disability, as you know, so they would 
be tested within their own capabilities, if you will. I don't 
believe that is what is happening. I think that is a false 
portrayal. I do think as we move forward we will get better at 
gauging gain scores which I think ultimately are the best way 
to judge the quality of teaching, how far did you take a 
student, where did you start and where did you end up and we 
are getting better at that. It is impossible to do that in the 
absence of data every year for every child and until we have 
had that for a few years, I don't think we will be very good at 
it.
    Mr. Hastings. Mr. Wicker wanted to have followup.
    Mr. Wicker. Thank you, Mr. Chairman.
    I certainly have a great deal of respect for Mr. Baird and 
when I hear that he is a clinical psychologist, that respect 
increases. I am a lawyer by training and they teach you not to 
ask a question that you don't know the answer to but I am going 
to do that. I am going to ask that chart No. 6 be put back up 
there. Ms. Keegan, you come to us with a good deal of 
educational expertise and you represent a group that has a good 
deal of expertise in this area.
    My question is going to be do you think this is a specious 
chart or not? We don't have programs intended to make our 
students taller or run faster but we do expect that our funding 
in elementary and secondary education improve reading scores 
and math scores. So I think those are different things to look 
at. It just seems to me that if what Mr. Baird says is entirely 
correct, then we ought to quit trying to spend money to improve 
math and reading scores because there is just no hope in doing 
much to improve them.
    I will give you an opportunity to comment on this chart. It 
compares increased spending on the Elementary and Secondary 
Education Act funding which I think we can agree is substantial 
to a rather flat line in terms of improvement in reading scores 
and I wonder if you could comment on the chart. Do we need to 
take that down as a specious chart? And comment also on the 
question I asked earlier of the Secretary concerning the vast 
amounts of increased expenditure as compared to a lack of 
increase in achievement on the scores?
    Ms. Keegan. I don't consider that specious at all. I don't 
believe that reading ability is as natural a growth pattern as 
getting tall. Unfortunately, reading takes an explicit 
instruction. Reading requires that somebody sit down with you 
and show you how to do it. You don't naturally learn to read 
like you naturally learn to talk. Unfortunately there is some 
confusion about that out there.
    That line means we have not managed to improve the level of 
reading for the kids in the country over that number of years 
in spite of a great deal of additional funding. I would suggest 
that funding was not properly applied to reading instruction or 
you would have seen that line go up. The point is you have to 
pay for something that matters. What would have mattered to 
those kids would have been a teacher expert in reading 
instruction.
    Mr. Wicker. Can we put up chart No. 5 just to give you the 
opportunity to see what has happened with regard to math 
scores. They had some moderate improvement early on, about a 
decade ago, but sort of flatlined also in light of a huge 
amount of increased spending.
    Ms. Keegan. Mr. Chairman, Congressman Wicker, that is 
right. You can see that it goes up and when you pull it out 
into individual, all of the 50 States, for example, you will 
see a bit more of an angle in those States where you are 
beginning to get a little bit of a difference or you have had a 
difference. Fortunately, some of those numbers are beginning to 
move and there will never be--at least I have never seen it--
there is not a direct line correlation between increased 
funding and increased achievement. Those numbers just seem not 
to track each other at all, at least in the environment where 
there is a minimum amount of money.
    What happens on a chart like this is that line, the fact it 
is showing flat, is actually very demonstrative of all 50 
States and the fact that we can't see statistically significant 
improvement even in an environment where increasing investments 
are being made. What it says to me as an educator is that the 
money is not being applied to the right areas.
    Mr. Wicker. Are there places, are there school districts 
where that achievement line has gone up?
    Ms. Keegan. Oh, of course, fabulous. If I didn't see that 
in places where it was highly unlikely because the kids are all 
poor and you are getting outstanding increases in achievement 
and lines that go right off the page, I would just give up. I 
would say, this must be naturally that is the way the kids are. 
It is not the kids.
    Mr. Wicker. Thank you.
    Mr. Baird. Mr. Chairman, if I may follow up?
    Mr. Hastings. Yes, go ahead.
    Mr. Baird. Ms. Keegan, would you believe that it is 
appropriate if we are really looking at the dollar to not 
adjust that chart as per capita spending versus raw dollars? 
Let me ask it this way. If the population of our country 
increases, would you expect a commensurate increase in reading 
performance merely because we have more people?
    Ms. Keegan. Mr. Chairman, Mr. Baird, no, not necessarily, 
not under the same circumstances.
    Mr. Baird. I wouldn't think so. Then is it not at least 
minimally appropriate to adjust this chart in terms of per 
capita expenditure rather than raw dollar expenditures?
    Ms. Keegan. Not necessarily. You are just looking at a 
score on how the kid did, whether there was a difference.
    Mr. Baird. I think you are making the point that we spent 
more money. I think we have a real problem in education. I 
think we have a severe problem. I think it is evidenced by the 
use of this chart. As a very minimum, the metric should be how 
much we are spending per student. I would agree that we could 
spend a lot more per student and not necessarily see that line 
go up but I think it is a raw minimum and in intellectual 
integrity you have to say let us adjust that thing for per 
capita expenditure.
    The second question I would ask is do you happen to have 
off the top of your head the mean and standard deviation for 
the NAEP scores?
    Ms. Keegan. You would be shocked to know I don't have that 
number in my head.
    Mr. Baird. Do you think as a statistician there would be 
some merit in understanding what the potential magnitude of the 
gains are on the instrument itself? In other words, what is a 
reasonable increase? You spoke of large increases that have 
been seen. I would kind of like to know what the mean and the 
standard deviation are so that I know what opportunity there is 
for that red line to increase given the metric of the 
instrument we are using here?
    Ms. Keegan. It might help you understand the chart a bit 
better. The reason you don't need a per pupil expenditure 
dollar there is it is just shown in constant dollars all the 
way across, there never was a point at which it was per pupil. 
If it was per pupil at one point and they switched it, that 
would be specious but just constant.
    Mr. Baird. No, it is probably reversed, Ms. Keegan. It is 
quite the reverse. The average expenditure per pupil would be a 
factor of the total spending divided by the number of pupils. 
So you would expect and increase as our population increases in 
the blue graph. You would expect that. That has to happen, but 
we haven't adjusted that blue graph in terms of per capita 
expenditure and that is the metric in terms of how much support 
is getting to kids. Secondly, there are limits. You are 
absolutely correct, we don't necessarily have programs to make 
kids grow taller and we need better reading programs. Nobody 
disputes it but would you dispute as an educational expert that 
there are some finite parameters within which we can expect 
kids to improve their reading or math scores as a function of 
the development levels?
    Ms. Keegan. I think that those limits are so irrelevant 
right now as to not even be worth talking about because we are 
so far below them.
    Mr. Baird. What on this NAEP would you consider as valid 
and probable, reasonably probable, assuming the best optimal 
expenditure of funds, what kind of level would we expect to see 
in the NAEP scores? I recognize, Ms. Keegan, you didn't present 
this graph, so I am being a little unfair to you but I worry 
when in a discussion of educational standards, we don't use our 
best intellectual analysis of the data because I think it is 
somewhat inconsistent. I don't expect you to have off the top 
of your head, nor do I, frankly, the NAEP scores but I would 
say that this chart to be meaningly interpreted, you need to 
know some sense, we all need to know, what a reasonable 
standard is and what kind of fluctuation we would expect to 
get. In other words, what percentage of the kids already, the 
very top kids, how high can they get on this test? Let us 
suppose you have the very best kid, the best genetics, the 
brightest school and the best teaching, how high can they go 
and where could that graph go if we got all our kids there?
    Ms. Keegan. That is right, you can make a much richer graph 
there but the fact of the matter is that red line is a 
statistical creation of kids. No one student takes all of the 
math questions at grade nine, it is a compilation. So there 
would be no reason for you to want to do that. The score line 
doesn't relate to individual students and therefore, I don't 
think the expenditure actually would reasonably relate to 
individual students. They are not necessarily the same thing. 
You can change the line. I think the point it makes is that 
there have been huge increases in funding, relatively flat 
scores, and you could improve that by putting an upper line at 
the point at which you would be meeting even basic standards. 
That would be helpful but it wouldn't lower it.
    Mr. Baird. I appreciate the opportunity to raise this 
issue. I appreciate Mr. Wicker's efforts.
    Mr. Hastings. Thank you very much.
    I don't want to put motivations behind what people are 
asking but clearly the tone of this budget hearing, which is 
focusing on trying to build a blueprint for education spending, 
was focused on dollars. Secretary Paige I thought very clearly 
said that is not the only way you measure education. Thus we 
have charts on both sides. Maybe this discussion would help us 
not have some of those charts that are clearly here for maybe 
reasons beyond what we feel ought to be doing as policymakers 
but being a realist, I doubt that will happen.
    With that, Ms. Keegan, I want to thank you very, very much 
for your testimony. I appreciate the give and take here. That 
was educational. No pun intended.
    Thank you very much and the committee stands adjourned.
    [Whereupon, at 1:40 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]

                                  <all>

</pre></body></html>
